<html>
<title> - U.S. SECRET SERVICE: HOLDING THE PROTECTORS ACCOUNTABLE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                U.S. SECRET SERVICE: HOLDING THE PROTECTORS 
                               ACCOUNTABLE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

                           Serial No. 114-16

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                              _____________
                              
                              
                          U.S. GOVERNMENT PUBLISHING OFFICE
94-541 PDF                   WASHINGTON : 2015                        
                                          
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5a2b5aa85a6b0b6b1ada0a9b5eba6aaa8eb">[email&#160;protected]</a>  
                      


                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
                        Tristan Leavitt, Counsel
                          Mike Howell, Counsel
                        Melissa Beaumont, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 24, 2015...................................     1

                                WITNESS

Mr. Joseph P. Clancy, Director, U.S. Secret Service, Department 
  of Homeland Security
    Oral Statement...............................................    11
    Written Statement............................................    14

                                APPENDIX

Statement for the Record, submitted by Rep. Connolly.............   104
Slides entered by Mr. Chaffetz...................................   106


        U.S. SECRET SERVICE: HOLDING THE PROTECTORS ACCOUNTABLE

                              ----------                              


                        Tuesday, March 24, 2015

                   House of Representatives
       Committee on Oversight and Government Reform
                                            Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154 Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the committee) presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gowdy, Massie, Meadows, DeSantis, Mulvaney, 
Buck, Walker, Hice, Carter, Grothman, Palmer, Cummings, 
Maloney, Norton, Clay, Lynch, Connolly, Cartwright, Kelly, 
Lawrence, Lieu, Plaskett, DeSaulnier, and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. Without objection, the 
Chair is authorized to declare a recess at any time. Appreciate 
everybody being here.
    Reforming the United States Secret Service is not a 
partisan issue. Ranking Member Cummings and I have presented a 
united front on this issue, and I look forward to continuing 
this important work with him on both sides of the aisle.
    The most important mission for the Secret Service is 
protecting the President and his family. However, a litany of 
recent mishaps raise major concerns.
    In 2011, nobody recognized shots were fired at the White 
House until bullets were discovered by maintenance staff. It 
has been well publicized that Secret Service Agents engaged in 
misconduct in Cartagena, and Amsterdam, and Miami.
    In September of last year, a security contractor with an 
arrest record rode in an elevator with the President in Atlanta 
armed with a gun completely unbeknownst to the President's 
detail. A few days later, a man armed with a knife jumped the 
White House fence, made it past the Secret Service, well into 
the White House.
    And now on March 4th, the second-in-command of the 
President's detail drove his car through a crime scene 
involving a bomb threat while the President was in the White 
House.
    This has to stop. The Secret Service has a zero fail 
mission to protect our President and his family. This is 
especially true for the President's Protective Detail, or what 
is often referred to as the PPD. We need to understand why 
these incidents keep happening.
    This Committee requested the Special Agent in Charge of the 
PPD, Robert Buster, attend a bipartisan closed-door briefing 
regarding the incident. Director Clancy said no.
    The Committee requested the supervisors on duty before and 
during the incident in March to testify today, but Director 
Clancy said no.
    We asked Director Clancy to turn over video footage of the 
incident, and again the Director said no.
    In our closed-door briefing last week, Director Clancy was 
unable to adequately answer questions about the events of March 
4th. Instead, he asserted that by referring the matter to the 
Inspector General, he was unable to ask any questions of his 
own, but Congress is also doing an investigation. To not do an 
investigation would be malpractice on our part. Congress has a 
role, we have a duty, we have a responsibility to conduct our 
own investigation.
    By refusing to allow the witnesses we invited to testify 
with first-hand knowledge of the incident, Director Clancy is 
keeping Congress and the American people in the dark. On top of 
that, the Secret Service has missed every deadline to provide 
this Committee with information, with no legitimate explanation 
as to why.
    It is unclear why Director Clancy is choosing at the start 
of his tenure to be so unhelpful to Congress. While I was 
hopeful Director Clancy would assist Congress in understanding 
how we can restore the Agency to its prior stature, this does 
not appear to be the case.
    The March 4th incident is concerning on three major points. 
(1) the interference of crime scenes by senior Secret Service 
personnel; (2) allegations involving decisions, communications, 
and dispositions of senior Secret Service personnel; and (3) 
the Agency's apparent botched response to a bomb threat while 
the President was in the White House.
    Although the Secret Service has refused to provide video 
footage of the incident, the Metropolitan D.C. Police 
Department has. Initially, I had indicated that I was 
frustrated about the lack of response by the Metropolitan 
Police Department. This was based on information given to us by 
the Secret Service. I was critical of the Chief, and suggested 
that Chief Lanier was going to get a nasty gram from Congress, 
which we sent. But I can tell you, I have nothing but praise 
and thankfulness for her and her Department and Agency for 
swiftly and completely responding to Congress' request.
    We appreciate her, the men and women who work at the 
Metropolitan Police Department, and their swift response to our 
request. It certainly stands in great contrast from what we've 
seen from the Secret Service.
    Now, we're going to show part of a video here that was 
provided to us by the Metropolitan Police Department, but a few 
things before you see this.
    On March 4th, at 10:24 p.m., a woman drove her vehicle to a 
security gate outside the White House fence line on 15th Street 
and left a package she claimed to be a bomb. Secret Service 
agents and officers at the scene confronted the suspect, but 
were unable to apprehend her. The package sat unattended as 
traffic drove by for a long period of time. It took 11 minutes 
for the Secret Service to call the Metropolitan Police 
Department bomb squad. For 17 minutes, 17 minutes traffic 
continued through the intersection and several pedestrians 
walked within feet of the potential bomb. I don't understand 
how that happens.
    When the Secret Service finally did call, they failed to 
mention to the Metro Police Department that it was an actual 
bomb threat, rather than just a suspicious package. It has been 
explained to us there is a difference, a difference in the 
response time, and the approach that they take. You can 
understand how around the perimeter of the White House there 
are oftentimes items that are left unattended, but it is a 
wholly different situation when somebody comes up and places at 
the perimeter of the White House a package that they claim to 
be an actual bomb.
    Let me show this video, and I'll try the best I can. We 
have this. We'll put this up on our YouTube channel. To try to 
describe what's happening, it's 10:30--roughly 10 to 20 plus at 
night, 15th Street. There's the car, it pulls up. You can start 
to see the person who has dropped off the bomb, and then you'll 
see an officer come out and try to apprehend the person who's 
actually been charged now with a variety of different crimes.
    The potential bomb really sits next to that building right 
there. And, again, we're doing time lapse video, but you can 
see the cars have been driving by and whatnot. Then we're 
zooming in here, and you can see that the agents that were in 
question about what they were doing. This is a full 30 minutes 
after the initial would-be bomb was placed there.
    You can see that there are some big cones, or big barrels 
that are put out. Now, I--again, we have two crime scenes at 
this point; the assault on the officer, and then you have 
within just a couple of feet, you can see they're actually 
bumping into that barricade there. That is not much of a 
barricade, in my personal opinion, but driving right within a 
couple of feet of this would-be bomb, which begs a lot of 
additional questions.
    It takes the Secret Service and the Metropolitan Police 
Department about an hour and 20 minutes to finally come to the 
conclusion that this is not a bomb, and that the scene is then 
rendered safe.
    An officer followed the suspect in her car, so we get to 
another part of the story which begs a lot of questions. 
Somebody drives up, drops off a would-be bomb, and then the 
Secret Service actually gets an officer behind this person, but 
they were mistakenly called off the pursuit when the Secret 
Service identified the wrong car as the suspect's. So, 
actually, right behind, I can only imagine this officer saying 
I've got this person in my sights, but instead of pulling this 
person over, instead of maybe going the extra step to just 
check, gets waved off. And they pursue another car, who isn't 
actually the suspect.
    Thirty minutes, thirty minutes after the woman fled the 
scene, the Secret Service finally issued a BOLO, a Be On The 
Lookout for a vehicle to local law enforcement. Metropolitan 
Police Department didn't know for 30 minutes what vehicle they 
were to be looking for, 30 minutes.
    The suspect was finally arrested 3 days later 90 miles away 
by a different police agency on an unrelated charge, unrelated 
charges. The day before she was arrested, she was interviewed 
by the Secret Service agent, but the Secret Service claimed 
they were unable to arrest her and, instead, canceled the 
lookout for the woman.
    Back at the White House on March 4th, two senior Secret 
Service agents, including Mark Connolly, the President's 
second-in-command on his Protective Detail, disrupted the crime 
scene. These agents placed themselves, their colleagues, and 
the President and his family in potential danger by driving 
their government vehicle through a barricade within feet of a 
potential bomb.
    Under Secret Service's policy, video footage of the 
incident should have been retained; however, most of the 
footage has evidently, according to the Secret Service, has 
mysteriously gone missing. I find this highly suspicious.
    In a briefing last week, Director Clancy and Deputy 
Secretary Mayorkas played Committee Members two tapes of the 
incident that showed the same few seconds from two different 
angles, just a few seconds out of an incident that lasted more 
than an hour and 20 minutes. There were eight Members there, 
three Committee Chairmen, several Ranking Members, four 
Democrats, four Republicans. Though limited, the footage 
clearly showed the agents purposely moving the barricade aside 
with their car.
    I want to set aside for a second the concern that the 
Secret Service is only maintaining video footage for one of the 
most important buildings in our country for only 72 hours. That 
makes absolutely no sense on any level to me, because there are 
issues related to national security, the prosecution of the 
actual event, and the basic ability to learn from past 
instances, as we're having to deal with now. But based on the 
Secret Service's policy, video footage of this incident should, 
nevertheless, been retained.
    We have two crimes scenes that should have immediately been 
highlighted; yet, an agency spokesperson told CNN: ``In the 
event of an operational security incident at the White House 
complex, specific video footage is maintained for investigative 
and protective intelligence purposes.'' That would seem to make 
sense, but that's not what's happened here.
    Yet, Director Clancy and Deputy Secretary Mayorkas only 
showed two very limited views of the incident to the Committee. 
Does a potential bomb near the White House not qualify as ``an 
operational security incident?'' If a potential bomb doesn't 
qualify, then what does?
    These tapes should have been retained, and this Committee 
intends to find out why they were not. We were only shown 
seconds of a video for an incident that lasted for more than an 
hour.
    Director Clancy, today we expect answers, and we expect you 
to know them. We're nearly 3 weeks after the incident. To help 
you prepare for the hearing today, my staff reached out to your 
congressional Affairs Office to let you know what subjects we 
would be covering here today. Your staff was fully briefed on 
what we expect you to know. I want to let you know that the ``I 
don't know'' strategy is not going to sit well with our 
Committee.
    We look forward to your answering the questions and 
providing clarity on what happened March 4th. We do appreciate 
you being here. I can tell you that you have been personally 
very accessible, and I greatly personally very much appreciate 
that.
    So, with that, let me now recognize the Ranking Member, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I 
thank you for calling this hearing today.
    Director Clancy, welcome, again. And let me start off by 
saying, Director, that there are moments in life that are and 
should be transformative moments. In other words, there are 
moments in all of our lives where something happens. It may 
very well be negative; usually, it is. And then we have to 
pause for a moment and learn from it, and correct it. And if we 
do not correct it at that moment, in my 64 years on earth I've 
discovered it usually gets worse.
    I am here to tell you that we are at such a moment. And the 
sad part about it is that these moments seem to keep coming. 
Usually, in life it's one moment or two, but they seem to just 
keep coming, and coming. And I tell you, I have great concerns. 
And I'm glad this is a bipartisan effort because this is bigger 
than us. This is bigger than the Secret Service.
    This is about the security of the most powerful person in 
the world, so this is not--I know that this will not get down 
to a partisan battle, will not get down to a gotcha. But this 
is about us trying to do our job.
    Your job, and the great men and women of the Secret 
Service's job is to guard the President and his family, our 
former President, and other protectees. Our job is to make sure 
you do your job, and to make sure that you and the agents are 
accountable.
    Now, I must tell you that I was disappointed to find out 
that we will not hear from the other Secret Service witnesses 
the Committee invited to testify here today.
    Director Clancy, I have the greatest respect for you, and 
your service to our country. Your job is crucial. Your 
reputation is exceptional, and sound, and you desire to protect 
your agents and officers against unwarranted intrusion is 
admirable. But as I've said to you before, if we are going to 
err, let us err on the side of the safety and security of the 
President of the United States of America.
    So, we wanted to speak with these witnesses for a very 
simple reason. According to your own testimony, you did not 
know about this incident until 5 days after it happened. You, 
yourself, had said that is unacceptable. And, again, as I said, 
we have those transformative moments, and that's one symptom of 
the problem saying that we need to do some transforming.
    Your predecessor, in my conversations with her, one of the 
things that she said was that quite often she did not get 
information, she did not get complete information, she got 
inaccurate information, and in some instances got no 
information. Something is wrong with that picture, it was wrong 
with that one and, obviously, there's something wrong here.
    With all due respect, I have to say how disappointed I was 
with your initial letter on Friday. It simply announced that 
you would be the only witness today without providing any 
reason for the other witnesses not testifying. No other 
Committee is doing more on this issue than our's, and we are 
trying to conduct our work in a responsible, bipartisan manner. 
We really have no room for error, and if we're going to err, we 
err on the side of the safety of the President.
    But when we receive a response that rejects our request 
with no explanation at all, it's difficult to view that 
response as respectful, which I know is not your intent. I 
understand that.
    For these reasons, I was heartened to receive your letter 
yesterday in which you outline your specific concerns with the 
public testimony of agents charged with protecting the 
President. I also appreciate your offer to work with this 
Committee to examine other ways to provide us with the 
information we need to fulfill our constitutional oversight 
responsibilities.
    Of course, we all understand that there is an ongoing 
Inspector General investigation of this incident, and we 
respect that. The IG has informed us that he will be moving 
quickly, and should be able to answer key questions in weeks, 
not months.
    We recognize the Inspector General's investigation could 
result in recommendations for disciplinary action, and the last 
thing we want to do is interfere with that process. But keep in 
mind what I said, if we are going to err, we must err on the 
side of the safety and security of the President.
    That is why the Chairman and I have committed to consulting 
with the IG directly before taking any significant action that 
could impact this work.
    Director Clancy, my most significant concern has always 
been and remains today that you did not know about this 
incident, and that nobody in the entire agency told you about 
it. There's something awfully wrong with that. Five days, 5 
days, 5 days went by while you were in the dark.
    Last year when the former Director of the Secret Service, 
Julia Pierson, sat in the same chair that you're now sitting 
in, I warned her that she was not getting the information she 
needed to do her job. I alerted her that agents and officers 
believe they were better off staying silent instead of raising 
their concerns up the chain. I informed her that there were 
agents that felt more comfortable coming to Members of the 
Congress of the United States than talking to people who were 
the higher ups at the Secret Service. Something wrong with the 
picture. And I lamented an environment in Secret Service that 
would allow these deficiencies to continue; yet, that appears 
to be exactly what happened here.
    I believe that when the chain of command is broken, when 
the chain of command is broken there is no command. It's like a 
body without a head. And when there is no command, there is 
vulnerability. Again, that vulnerability goes to the safety of 
the President of the United States of America. So, let me make 
something very clear.
    This is not business as usual. This is not just another 
Oversight hearing about just another agency. I admire this 
President greatly. I admire him for his challenges, the 
challenges he's overcome to be President, the accomplishments 
he has achieved since then, the principles he stands for on 
behalf of our country and the world, and the contribution he's 
made to our Nation's history. I also admire the people, our 
former Presidents and their families. I want to make sure, and 
all of us want to make sure that they are protected, so I don't 
want you to take this personally. This is about us doing our 
job.
    You have to be accountable to us, but your job is, of 
course, to guard the President. So, I do not want anything to 
happen to him, not under my watch, not under this watch. So, 
this would not be about politics, it cannot be. It cannot be 
about headlines, or unnecessary disputes that contribute 
nothing to the solution. We must come together in a nonpartisan 
way to take concrete steps both publicly and privately to turn 
this agency around.
    Again, this is a transformative moment. If we fail to do 
that in this moment, it can only get worse. The agents and 
officers of the Secret Service risk their lives on behalf of 
this great nation. They are great human beings, great public 
servants, and they deserve an agency that they can be proud of.
    One of the things that has concerned me greatly is the 
anonymous email that you got to us. Would somebody put this up? 
This email--you're familiar with it, are you not?
    Mr. Clancy. Yes, sir.
    Mr. Cummings. And this email concerns me, ``Since last 
Wednesday night, the Uniform Division established a crime scene 
at Special Post 15 at the White House after a package was 
thrown at an officer. The officer was told the package was a 
bomb, so they taped off the area and made it a crime scene. 
Then at some point an DSAIC from WFO, and a PPD DSAIC drove 
through the crime scene tape. Duty officers at the scene said 
they were both extremely intoxicated. They were coming home 
from Ed Donovan's retirement dinner. They apparently flipped on 
the lights on their government vehicles to go around the 
roadblocks. Then the nudged the barrels close to closing the 
post with their government vehicles. Then were waving their 
White House passes around confused as to why the post was 
evacuated.
    UD officers were going to arrest both of them, but the UD 
Watch Commander said not to. Apparently, the whole incident was 
captured on video from inside the JLC.''
    What I don't understand is this. A lot of people got this 
email, a lot of them got it, but you didn't. That is a problem. 
But you know what really bothers me, as I read this, I kept 
reading this email this morning over, and over, and over, and 
you know what I concluded, it appears that we have an agency at 
war against itself.
    The idea that in an organization like this that somebody 
would create this kind of document to bring this kind of 
disruption when they are supposed to be guarding the President 
of the United States of America. We're better than that, and 
some kind of way we have to take advantage of this 
transformative moment. If we don't, it can only get worse. And 
with that, I yield back.
    Chairman Chaffetz. I now recognize Mr. DeSantis of Florida. 
He's the Chairman of the Subcommittee on National Security. Mr. 
DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    The website, Secret Service lays out the vision and that's 
``to uphold the tradition of excellence in its investigative 
and protective mission through a dedicated, highly trained, 
diverse partner-oriented work force that employs progressive 
technology, and promotes professionalism.''
    Notwithstanding that Statement, the Secret Service has been 
falling short of that standard, and I think the Chairman did a 
good job of enumerating some of the problems we've seen in 
recent years.
    We are here to examine this most recent incident, and I've 
got to say, I join the Chairman in expressing my disappointment 
of the lack of cooperation. We wanted to speak with witnesses, 
we wanted to have information sooner, and I think that that's 
not the way that this is going to be productive.
    This is a very important role that the agency plays not 
only in protecting our leaders against threats foreign and 
domestic, but that's part of a larger mission to protect the 
integrity of our government, and to make sure that elections 
are honored, and that the people who are elected to those high 
positions are safe. And I think to do that effectively, you 
have got to have a system that has robust accountability.
    And I think that's what the questions that we're looking at 
today say OK, where is the accountability in the agency? And it 
just seemed throughout the whole saga with different problems 
that there's not swift accountability. And I think that's going 
to make it more difficult to get the agency where we all want 
it to be.
    But I do commend the Chairman, Mr. Chaffetz, Ranking Member 
Cummings, and my colleague on the National Security 
Subcommittee, Mr. Lynch, for their diligence in insuring that 
those that carry out this important mission are given the tools 
they need to carry out their responsibilities.
    We want high standards, we want accountability. That's 
important, and I think the American people want nothing less. 
And I look forward to Director Clancy's testimony, and I yield 
back.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the Ranking Member of the Subcommittee on National 
Security, Mr. Lynch of Massachusetts, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I'd like to thank 
Ranking Member Cummings for his work on this, as well as 
Chairman DeSantis. We really appreciate the fact that we're 
working together on this.
    This hearing is to examine the continuing lapses in 
security involving the U.S. Secret Service. I'd also like to 
thank Director Clancy for being here, and to testify this 
morning.
    I have the utmost respect for Mr. Clancy, but I have to 
agree with the Chairman, Mr. Chaffetz, and the Ranking Member, 
and Mr. DeSantis that the fact that you were not notified of 
this incident for 5 days concerning your two agents is totally 
unacceptable, and it shows a deep problem within the 
organization that we have to deal with.
    At the outset, I'd like to notice that the purpose that 
we're having this hearing today is not to disparage our 
dedicated Secret Service work force; rather, this bipartisan 
investigation into recent security incidents at the White House 
and other Secret Service protected locations and events is 
founded in our genuine concern over the safety of the 
President, his wife, and his daughters, his mother-in-law, and 
White House personnel.
    Regrettably, systemic challenges, antiquated security 
protocols and entrenched agency culture have given rise to 
glaring gaps in the security, and the critical protection 
mission of the Secret Service demands that we make every effort 
to address them.
    On the heels of the White House fence jumping incident that 
occurred in September 2014, and reported gunshots near the 
Delaware residence of the Vice President in January 2015, we've 
now learned about two security incidents that occurred on the 
White House grounds on the night of March 4th that again call 
into question the effectiveness of existing security protocols, 
security technology, information sharing, and post-incident 
review at the Secret Service.
    In briefing this Committee on March 17th regarding the 
alleged interference of two Secret Service agents with a live 
bomb threat investigation at the White House, the Secret 
Service played us two brief and seemingly incomplete video 
clips of a slow-moving vehicle bumping gently into a plastic 
barrier that were--those videos were taken from almost 
identical angles and contained absolutely no audio. In response 
to member request that he provide us with additional videos of 
the incident, Director Clancy revealed that the Secret Service 
routinely overwrites security camera footage after only 72 
hours.
    Given that Director Clancy also informed us that he did not 
receive notification of the alleged interference until 5 days 
later on March 9th, the security footage in question was 
reportedly purged two full days before the Director even found 
out about the security incident. That is simply unacceptable, 
and it tells me that we need a stem to stern review of our 
security technology policy at the White House.
    Director, you invited us over, members of the Committee, to 
review the command post for the surveillance of the White 
House, and I know for a fact we have full spectrum review and 
surveillance over that area. We probably have five or six 
cameras at least that would have given us useful information 
regarding this incident. And as the Chairman pointed out, we 
have overlapping incidents, so we have a bomb threat, an active 
bomb threat while the President is in the White House, and his 
family is in the White House. We have an active bomb threat, 
and then we have an interference by these two agents during 
that bomb threat, during that incident, and we purge the tapes, 
we purge the tapes.
    That active bomb threat against the White House was 
something that should have raised red flags with personnel from 
the Secret Service. It should have been on everyone's mind. I 
know that multiple emails went out to supervisory personnel. 
Everyone knew this was a bomb threat; and, yet, we went ahead, 
at least that's what I'm hearing so far, that we went ahead and 
purged the tapes surrounding that 72--excuse me, surrounding 
that bomb threat to the White House within 72 hours. We 
destroyed the evidence, and that completely is--that is just 
mind boggling that we might do something like that.
    Now, I've got a lot of questions. I know the members of the 
Committee do, as well, but as a frame of reference indicating 
the inadequacy of the 72-hour video retention policy, I would 
note that my own State of Massachusetts requires State and 
municipal agencies to retain their security video tapes for 30 
days under the State Public Record Statute. That's why agencies 
ranging from the Massachusetts Bay Transportation Authority, to 
the Boston Housing Authority have a 1-month video storage 
policy in place.
    In addition, under its current Memorandum of Agreement with 
the Federal Transportation Security Administration regarding 
the use of consolidated camera surveillance systems at Logan 
International Airport, the Massachusetts Port Authority also 
has expressly agreed to retain captured images for 30 days. 
That's at the request of a Federal agency, we're retaining that 
for 30 days.
    Moreover, local educational institutions, such as Tufts 
University, University of Massachusetts have also implemented 
30-day retention policies for the campus security cameras.
    In addition, I have a number of kindergartens in my 
district that retain, because of the security interests of 
those children, they have a 30-day policy.
    You know, I have to tell you, and I've said this before, 
you know, my local store 24 has a better surveillance system 
than we have at the White House. That's a sad Statement of 
affairs, and that's been the--that's been because of a number 
of directors going back beyond your own service. So, there's a 
lot of questions to be answered here.
    I'm going to let the rest of my Statement go. I appreciate 
the Chairman's indulgence, and I yield back the balance of my 
time.
    Chairman Chaffetz. I thank the gentleman.
    I will hold the record open for five legislative days for 
any members who would like to submit a written Statement.
    We welcome today our witness, the Honorable Joseph P. 
Clancy, Director of the United States Secret Service.
    Before we go forward, though, let me say that the members 
of this Committee, I do not believe that the presence of Mr. 
Clancy alone is sufficient to achieve the goals of this hearing 
today. It is the Committee's intention to bring forward a 
series of people in transcribed interviews. We would prefer to 
have done this a different way. The Secret Service has refused 
our ability to do that, but the people involved in these 
incidents should know that they will be invited by this 
Committee, both sides will be present for transcribed 
interviews as we conduct this further.
    To our dismay, the Secret Service refuses let other invited 
witnesses testify. In fact, the Committee has questions. When 
we issued these letters and invitations for these individuals 
to appear, did they receive those invitations, or was the 
Secret Service prompted, did Homeland Security become involved? 
We have a lot of questions about why those individuals who were 
asked to appear are not sitting here today.
    We do expect to close the loop with these witnesses in the 
future, whether that be at a followup hearing, but I said it is 
the intention that we will most likely do transcribed 
interviews through this process.
    With that said, Mr. Clancy, we do appreciate you being 
here. Pursuant to Committee rules, all witnesses are to be 
sworn before they testify. If you will please rise and raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Mr. Clancy. I do.
    Chairman Chaffetz. Thank you. Let the record reflect that 
the witness answered in the affirmative.
    Mr. Clancy, we will now recognize you for your opening 
Statement. And please know that your entire written Statement 
will be part of the record. But we're pretty lenient on the 
time, but please share with this Committee your thoughts and 
perspectives. Mr. Clancy.

 STATEMENT OF JOSEPH P. CLANCY, DIRECTOR, UNITED STATES SECRET 
            SERVICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Clancy. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and distinguished members of the Committee. Thank you 
for the opportunity to be here to discuss the recent 
allegations of misconduct on March 4th, 2015, and the agency's 
progress in fulfilling the recommendations of the independent 
U.S. Secret Service Protective Mission Panel. As Director, I'm 
honored to lead the men and women of this important agency 
through this challenging time.
    With respect to the recent allegations, I personally became 
aware of the incident on March 9th, when I received a phone 
call from a former agent informing me of an anonymous email 
that was circulating. On that same date, I determined that the 
allegations should be referred to the Department of Homeland 
Security's Office of the Inspector General. I made this 
decision because allegations of misconduct involving employees 
at the GS-15 and higher level must be referred to the OIG in 
accordance with departmental policy. I trust the OIG's 
investigation will be thorough. I have committed the Secret 
Service's full cooperation to the OIG, and eagerly await the 
findings of their investigation.
    The fact that I did not learn of this allegation until 5 
days after it is said to have occurred infuriates me. This is 
unacceptable. I called my senior staff together the week before 
last. I made clear my expectation for prompt notification of 
allegations of misconduct that could impact our mission, or 
that violate the agency's standards of conduct.
    If it is determined that any of our employees failed to 
report information about this alleged incident, they will be 
held accountable. Our mission is too important for this to 
happen. It undermines my leadership, and I won't stand for it.
    I am resolved to holding people accountable for their 
actions, but I want to make clear that I do not have the 
ability to simply terminate employees based solely on 
allegations of misconduct. This is not because I'm being 
lenient, but because the agency's ability to take action is 
controlled by Title V of the United States Code, which provides 
Federal Government employees with certain statutory due process 
rights. I must respect these rights and the procedures Congress 
has put in place to preserve them.
    As it stands, the next step in this process is to wait for 
the issuance of the OIG report, at which point we will 
determine the appropriate disciplinary actions consistent with 
our established Table of Penalties. Once again, if the OIG 
investigation reveals misconduct, those involved will be held 
accountable.
    I have personally reviewed video footage from the evening 
of March 4th with members of this Committee. The initial 
reports of a vehicle crash were inaccurate; there was no crash. 
The video shows a vehicle entering the White House complex at a 
very slow speed and pushing aside a plastic barrel. There was 
no damage to the vehicle.
    However, many people have expressed serious concerns that 
the available footage from the night does not provide a full 
picture relative to the alleged misconduct. While the primary 
function of the camera systems at the White House complex is 
for operational security, specific video footage is routinely 
maintained for investigative and protective intelligence 
purposes.
    I share the concerns of this Committee that more video 
footage from the night of March 4th was not preserved. After 
receiving consent from the OIG, the Secret Service has 
contacted the manufacturers of the digital storage unit and is 
leveraging our capabilities in cyber forensics to make every 
attempt to recover additional video footage from that night.
    Although it predates my appointment as Director, Secret 
Service practice has been to retain footage from camera systems 
at the White House for a period of 72 hours. This practice 
concerns me. Therefore, I have directed that the video footage 
storage period be increased to 7 days effective immediately. I 
have also directed my staff to explore the feasibility of 
further expanding this timeframe while being mindful of 
concerns related to security and privacy.
    Turning to fulfilling the recommendations made by the 
independent Protective Mission Panel. I will touch briefly on 
each of these three areas identified in the report. First, 
training and personnel; second, technology, perimeter security 
and operations; and third, leadership.
    Regarding training and personnel, I have consistently held 
that a primary focus of mine has been to increase the critical 
staffing in the Secret Service to meet the demands of the 
mission, and to incorporate regular and consistent training to 
sharpen skills, insure preparedness at all times. The Secret 
Service is expected to exceed its hiring goals for this fiscal 
year, and maintain this pace for Fiscal Year 2016.
    We have also fully completed integrated training for 
officers and specialty teams within the White House Branch, and 
made improvements with respect to the amount of training 
received during fourth shifts by agents on protective details.
    With respect to technology and perimeter security 
recommendations, the Secret Service is in the midst of a multi-
phase project to replace the current fence around the White 
House. The goal of this project is to mitigate security 
concerns identified by the panel, including delaying potential 
intruders to give Secret Service personnel more time to react. 
The selection of a final fence option will be followed by 
design, procurement, and construction phases.
    As discussed in the classified briefings provided to this 
Committee, the Secret Service acknowledges the need for interim 
measures during this process, and has conducted initial 
testing, research, and development to that end.
    Finally, with respect to leadership, I am moving to 
rebuild, restructure, and reinvigorate the Secret Service, 
including elevating and empowering those with specialized 
professional skills within our civilian force by insuring our 
people have the necessary resources by developing budgets from 
the ground up, and utilizing a mission-based approach.
    In closing, I would like to make clear, I am proud of our 
work force, and would be remiss if I did not recognize that the 
vast majority of these men and women perform their duties with 
honor and distinction. They deserve strong leadership, clear 
and consistent policies, and appropriate resources to support 
the important work they do every day. It is my life's work to 
insure they get it.
    I thank the Committee for this opportunity, and welcome any 
questions you have at this time.
    [Prepared Statement of Mr. Clancy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Thank you. Now recognize the gentleman 
from South Carolina, Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Director Clancy, do you believe Congress has a 
constitutional right to provide oversight over the Secret 
Service?
    Mr. Clancy. Yes, sir.
    Mr. Gowdy. Do you believe that Chairman Chaffetz and 
Ranking Member Cummings are motivated solely by a desire to see 
what is best for the President, and for the agency, itself?
    Mr. Clancy. Yes, sir.
    Mr. Gowdy. With those two thoughts in mind, does this 
Committee have every single bit of video footage available from 
that evening?
    Mr. Clancy. I'm sorry, sir. Would you----
    Mr. Gowdy. Does this Committee have all available video 
footage from that evening?
    Mr. Clancy. It does not, sir.
    Mr. Gowdy. Why not?
    Mr. Clancy. Sir, we have provided that footage video that 
we have to this Committee.
    Mr. Gowdy. All of it?
    Mr. Clancy. We have shown two clips. We have not shown all 
of it.
    Mr. Gowdy. That's not my question, Director. You just said 
that Congress has a constitutional responsibility to provide 
oversight. You just agreed with me that Ranking Member Cummings 
and Chairman Chaffetz have the best interest of the President 
and the agency in mind, so why would you not turn over all 
video footage to this Committee?
    Mr. Clancy. Congressman, we will show all video at any time 
day or night that this Committee would like to review the 
footage that we have. We will--we have done that. In fact, the 
Chairman was the first, I believe, to see this video before we 
showed----
    Chairman Chaffetz. With all due respect, that's not true. 
Go ahead, Mr. Gowdy.
    Mr. Gowdy. No, I would want----
    Mr. Clancy. Mr. Chairman, I'd like to just correct--if I 
have to correct the record, I'd like to correct it.
    Mr. Gowdy. I would like to yield to the gentleman from 
Utah, because I was under the misapprehension, apparently, that 
this Committee was not in possession of all available video 
from that night.
    Mr. Clancy. That's correct; they are not in possession of 
the video, but we did allow the Chairman to view the video.
    Chairman Chaffetz. You've shown us less than 1 minute of 
video.
    Mr. Clancy. Yes. Yes, sir.
    Mr. Gowdy. Well, back to my question. Will you make all 
available video, and I say available because we're going to get 
in a second to the fact that all of it was not preserved. Will 
you make all available video available to this Committee?
    Mr. Clancy. We will make all video available to this 
Committee for your review at any time day or night.
    Mr. Gowdy. Will you make a copy of it available so we can 
retain custody, as opposed to simply showing it to us?
    Mr. Clancy. I will not release a copy of this video at this 
point.
    Mr. Gowdy. Why not?
    Mr. Clancy. The OIG has an ongoing investigation.
    Mr. Gowdy. You think the OIG's responsibilities supersede 
those of Congress?
    Mr. Clancy. Sir, I know that they have an ongoing 
investigation.
    Mr. Gowdy. Well, can't you have simultaneous ongoing 
investigations? Why can't Congress provide oversight while the 
IG is investigating? Why do you have to pick and choose?
    Mr. Clancy. Sir, again, I think we have one initial 
investigation from the OIG, and we've given them the film to 
look at.
    Mr. Gowdy. But you understand the responsibility of the IG 
is very different from the responsibility of Congress. Congress 
determines funding among other things, the IG does not. So, 
those two are not exclusive. Why can't Congress investigate 
what's in its jurisdiction while the IG does what's in its 
jurisdiction?
    Mr. Clancy. Congressman, I'm sure after the OIG's 
investigation----
    Mr. Gowdy. I don't want to wait until after, because that 
makes me think that you believe that Congress' constitutional 
responsibility to provide oversight is subservient to the IG. 
And surely to the world, you can't believe that.
    Mr. Clancy. Sir, the ongoing investigation that the Secret 
Service has, as well, regarding the Protective Intelligence 
case, we have an individual who committed a crime, made a 
threat, and that investigation is also going on at this time 
within the Secret Service.
    Mr. Gowdy. And how will providing that video footage to 
Congress jeopardize that ongoing investigation?
    Mr. Clancy. That----
    Mr. Gowdy. With precision, how will it?
    Mr. Clancy. That video shows the actions of the individual 
who would be accused of a criminal act.
    Mr. Gowdy. I get that. My question is, how will providing 
that to Mr. Cummings and Mr. Chaffetz jeopardize an ongoing 
investigation?
    Mr. Clancy. Well, again----
    Mr. Gowdy. With specificity.
    Mr. Clancy. I am happy to show that video all day, and be 
available at all hours of the day and night to show that video, 
but at this point we cannot release that video.
    Mr. Gowdy. All right. That's the video that is available. 
The video that is not available, will you agree with me that 
there are at least two potential crime scenes at play on the 
evening of March 4th, at least two? There's an assault on an 
officer, and there's a suspicious package.
    Mr. Clancy. That's correct.
    Mr. Gowdy. All right. Why would the video not be preserved 
as part of that ongoing investigation that you just cited as 
the reason you can't give the video to Congress? Why wouldn't 
you preserve it?
    Mr. Clancy. The process--my understanding of the process is 
that the watch commander onsite relays back the incident that 
he is the incident commander for, and he calls back to our 
Joint Operation Center and says we do have an incident here. We 
have a suspicious package. Preserve the video from this 
incident.
    Mr. Gowdy. Director, I'm out of time, but I want you to 
consider for just a moment the dueling narratives that you just 
portrayed.
    Mr. Clancy. Sir.
    Mr. Gowdy. No. 1, we're not going to give the video that 
does exist to Congress because its investigation is subservient 
to the IG investigation. That's narrative No. 1. And narrative 
No. 2 is, you're not even going to preserve video that could be 
used in a investigation of two potential crimes. Did I hear 
that right?
    Mr. Clancy. Well, we did preserve the video, the footage 
from the incident as those in the Joint Operation Center viewed 
it.
    Mr. Gowdy. Are you familiar----
    Chairman Chaffetz. The gentleman's time has expired.
    Mr. Gowdy. Well, some of my time was taken by the Chairman, 
but that is the Chairman's prerogative, and I would, of course, 
not ask for any more.
    Chairman Chaffetz. And the Chairman, obviously, made the 
right ruling.
    Mr. Gowdy. I yield back.
    Chairman Chaffetz. Good decision. We'll now recognize the 
gentlewoman from the District of Columbia, Ms. Norton, for 5 
minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    I think, Mr. Clancy, that you understand that the kind--the 
anger, the outrage that you hear really comes from this notion 
that you are a zero failure agency. We don't expect that, 
frankly, of most Federal officials.
    I was really surprised to see that you were just now, and 
I'm reading from your testimony on page 3, sent an agency-wide 
memorandum saying that they have to report allegations, 
apparently, right away. When, for example, before you came to 
the agency, you knew of the White House incident where they 
actually shot into the White House, and they learned about 
that, the Secret Service learned about it perhaps months later 
when an attendant found these bullets. It seems to me that the 
very first order that should have been given is please let me 
know. Don't put me on the hot seat of not knowing.
    And I say that, because I think the Committee did the right 
thing. It began at the right place with the leadership. So, we 
said we wanted new leadership. You're the new leadership. It 
said we want an expert panel. We had that expert panel.
    Now, I think we ought to go--I realize you've not been in 
place for a very long time, but I'd like to focus us on the men 
and women who are under you, because I don't think there's been 
any focus except for that panel. And that panel really did 
focus on what I was amazed to hear that people were working 
sometimes 14 days, and with a day off, if they got it, but it 
could be denied. And that--and I tried to link this to what I 
knew about the Secret Service. A kind of serial misconduct, you 
know, in Columbia, for example, in the Netherlands, all of the 
drunken agents.
    Well, see, I don't think that the Secret Service is a bunch 
of bums. I've got to look at what is happening to these men and 
women. I asked the staff to get--tell me something, are these 
people being trained? Are these people kind of letting it all 
out? And it looks like some of that is happening. And nobody's 
spoken up, and if somebody doesn't speak up, I'm not sure that 
this misconduct is not going to continue. This also was a 
drunken incident.
    Then I learned that in terms of the training, there's 
barely any training going on at the Secret Service. There were 
eight special agent basic classes in 3 years, 1908, 1909, and 
1910, but 2012 there were zero, by 2013 there was one. The 
panel said that you needed staff urgently, for starters. What 
is the problem? Is the problem with the leadership, is the 
problem with the men and women, you're not getting good people? 
Why don't you speak up for these men and women? If, in fact, 
they're letting off steam because you're overworking them, are 
they being overworked? Will this budget that you've just gotten 
begin to relieve some of those serial days in which people 
don't get any days off?
    So, would you describe that, and would you tell us more 
about training, and what training sessions are expected so that 
some of this misbehavior will be understood to be absolutely 
verboten.
    Mr. Clancy. Yes. Congresswoman, thank you. I have the same 
concerns you have. In fact, I want to hear more and more from 
these agents and these officers what their issues are.
    Just in a nutshell, I'll tell you that I walk by and around 
the perimeter of the White House frequently. This past Sunday, 
I went to the Roll Call Midnight Shift, the following morning 
went to the Roll Call, and wanted to hear what are their 
concerns. And in terms of the staff----
    Ms. Norton. But you can see what their concerns are, you 
know, the days off. Are people going to--according to the 
panel, the agents were consistently working 12-hour shifts 
under high stress, often with no days off. Is that going to 
change now that your budget has finally been released by the 
Congress, which has to take some of the responsibility for 
what's been happening, as well?
    Mr. Clancy. Again, you're exactly right. When I first came 
back here, my No. 1 initiative was to increase the staffing. 
We've got to increase staffing, and to do that, we've separated 
one of our directorates, which is H.R. and Training. We 
separated them apart to give each more specific training. And 
we have been working overtime to buildup----
    Ms. Norton. You had a little class for 2013, there was only 
one class. If you need more agents and need more training----
    Mr. Clancy. Yes.
    Ms. Norton [continuing]. With this new appropriation is 
there going to be another class of agents trained, and will the 
agents who are there who used to get training I understand 
every 4 weeks or so, will they have that regimen of training 
again?
    Mr. Clancy. Yes. In fact, we will exceed our goals this 
year. We have six UD Officer's classes, and six special agent 
classes that were scheduled. We will now go to nine and eight 
classes, so we expect to hire a lot more people in Fiscal Year 
15, and continue that into 1916. That is a critical need for 
the Service, and that will also help with getting more people 
out to training. In fact, since September 19th, the Uniform 
Division training has increased 110 percent. That's just a 
snapshot that we've got to keep the momentum going. And with 
the agent side of the house, and the President's detail, that 
training has increased 78 percent. Again, not where we want to 
be, but as we increase the staff we'll get more training for 
our people.
    Chairman Chaffetz. I thank the gentlewoman. Now recognize 
the gentleman from Florida, Mr. Mica, for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman. And good morning, Mr. 
Director.
    I've got some questions. I guess this is sort of another 
gotcha hearing. We just have incident after incident. We've had 
Cartagena, we have the fence jumper, we have this most recent 
one. And you testified that you cannot take action because--on 
personnel as far as discipline because of Title V. But as 
Chapter 102 of Title V sets some requirements, have you seen a 
draft that was prepared last year? Can you give the Director a 
copy of this draft? It's Deliberate Draft 72214, and its 
amendments to the hiring, managing, and discipline of its work 
force. This is amendments for Secret Service.
    So, rather than just talk about more incidents, let's get 
down to the brass tacks of the issues you face. Right?
    First is hiring. Right?
    Mr. Clancy. Yes.
    Mr. Mica. You've got to hire good people. You came and you 
said you need more people. I submit that you need better 
people, and you need better qualifications.
    When I left the White House about a week ago, I followed a 
Secret Service car just by accident and I said, ``What's that 
on the bumper?'' And it's actually soliciting for folks to work 
on the bumper of a police vehicle. This is the way we hire 
folks for the Secret Service.
    I didn't know your predecessor, Ms. Pierson, although she 
came from my local town. She called me after she was there for 
a while and she says, ``It's very difficult to get this place 
under control. I've got to have some ability to hire better 
qualified people.'' I didn't know that you didn't need a 
college education for some of those positions. Is that correct?
    Mr. Clancy. That's correct.
    Mr. Mica. She said that by law we've dumbed down the 
qualifications. So, first you've got to hire people. You don't 
hire them with an advertisement on a bumper of a vehicle. You 
want qualified personnel with the highest qualifications. 
Right?
    Second, you've got to be able to manage those personnel. 
And she asked for these things way back; in fact, on July 2d 
there was a meeting with Government Reform staff. Do you know 
where these recommendations are? I was told they went back to 
DHS.
    Mr. Clancy. We have----
    Mr. Mica. Where these suggestions for improvement are. Do 
you know where they are? Does anyone know? I want to know where 
they are, because they've been sitting around. She knew what 
was wrong before, you know, she was railroaded out. You'll be 
railroaded out, too, if we don't make changes. But the fault is 
in the guidelines that you have to follow.
    She told me managing personnel, administering them, you 
have a 20-year, I guess, retirement, then you have to retire on 
the law enforcement side?
    Mr. Clancy. That's-the older plan was a 20-year retirement, 
but the FERS is not 20 years.
    Mr. Mica. OK. Well, in any event, when you get to the 
retirement, then it took 2 years to get people trained for SES 
positions. That still exists. Right?
    Mr. Clancy. Yes.
    Mr. Mica. OK. She said that needed to be changed, because 
the time we're able to administer, you're hiring people getting 
the best qualified. Then you want the best administration. 
Right?
    Mr. Clancy. Yes.
    Mr. Mica. OK. so, we have an impediment in that she asked 
for that change. Nothing's been done. It's probably sitting 
somewhere over--then, finally, she said to hold people 
accountable; Secret Service holding protectors accountable. 
That's what this hearing is about.
    She asked for the ability to hire and fire an exempt agency 
under Title V. Do you agree with that?
    Mr. Clancy. Yes, we do.
    Mr. Mica. And that's one of her recommendations. But we 
have to do that, because you--we heard oh, there's no command. 
Well, hell, you don't have the ability to command, because your 
hands are tied by Title V. You can't hire and fire. You have to 
go through this layer.
    I chaired Civil Service, and I know how difficult it is to 
get rid of folks, even discipline folks. Most people are just 
moved horizontally to some other position. Isn't that just the 
case?
    Mr. Clancy. That's correct, yes.
    Mr. Mica. OK. So, again, you've got to have the ability to 
hire and fire.
    This proposal, I submit, which was last July, and I read 
the recommendations of the little group that came up with some. 
Until you address this fundamental problem, that Director, or 
whoever succeeds him will not succeed in managing his 
personnel, because one, he can't hire people that are 
qualified. Two, he can't manage or administer those folks. And, 
three, can't discipline, and hire and fire people that need to 
be held accountable. Is that right, basically?
    Mr. Clancy. Basically, yes, sir.
    Mr. Mica. OK. And, finally, if a bullet hits the White 
House, a window, or the building, has something been done to 
address that? You talked about the fence.
    Mr. Clancy. Yes, we have procedures now if there's any--
anything hits the White House. We have instituted procedures 
since 2011.
    Mr. Mica. And I'd like to know more for the record, or 
behind the scenes about drones, and how they can penetrate the 
perimeter. Thank you. Yield back.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
Ranking Member, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much.
    Director Clancy, I want to get down to something that you 
said, that you said was unacceptable, and that is when you 
found out about this incident. You learned of these allegations 
on May 9th, which was 5 days after the incident occurred. And 
that is a big concern for me, and I know it is for this 
Committee, too.
    First and foremost, there's no doubt that you should have 
been informed about this incident immediately. Is that right?
    Mr. Clancy. That's correct. Yes, sir.
    Mr. Cummings. So, you should have been informed about it 
the day of.
    Mr. Clancy. Yes, that's correct.
    Mr. Cummings. At our briefing last week, you told us that 
no one in the immediate office had been aware of this incident. 
Is that correct?
    Mr. Clancy. That's correct.
    Mr. Cummings. Last week you testified that the Secret 
Service personnel should have reported this incident up the 
chain. If I have this right, they should have reported as 
follows: from personnel on the ground to the Deputy Chief of 
the Uniform Division, to the Special Agent-in-Charge of 
Presidential Protective Division, to the Assistant Director of 
Protective Operations, and then to you. Is that correct?
    Mr. Clancy. That's correct.
    Mr. Cummings. Now, yesterday, the Secret Service produced 
documents to the Committee indicating that the Deputy Chief of 
the Uniform Division, Alfonso Dyson, became aware of these 
allegations on the night of the incident.
    Mr. Clancy. That's correct.
    Mr. Cummings. According to a briefing she sent to the 
Inspector General, and I quote; and I guess the briefing sheet 
is what you sent to start the investigation in the Inspector 
General's Office. Is that right?
    Mr. Clancy. That's correct. And let me, if I can, correct 
the record, because I know I met with you and other members in 
a closed door briefing, and you had asked how was that process 
started? And I said, ``I think it's a phone call.'' And it was 
started with a phone call, but I found out subsequently that 
there is a followup letter which is what we provided to you, 
that followup letter with our preliminary findings the very 
first day, on the 9th.
    Mr. Cummings. So, in his--in the briefing sheet it says, 
and I quote: ``Deputy Chief Dyson advised that he was familiar 
with an incident involving DSAIC Connolly and ATSAIC Ogilvie, 
and was briefed about the incident on the evening of March 4th, 
2015.''
    Mr. Clancy. Yes.
    Mr. Cummings. So, Director, if the Deputy Chief of the 
Uniform Division knew about the allegations, did he alert the 
Special Agent-in-Charge of the Presidential Protective 
Division? Did he?
    Mr. Clancy. I don't know, sir. I'm going to tell you that I 
am infuriated that I have not been advised on March 4th. Why I 
didn't hear any of that information, I don't know, but I will 
tell you that the Deputy Chief needed to raise that up through 
the chain of command. And this is something that I've been 
battling since I first came back, in a very brief time here. 
I've been back about 30 days, and we are working furiously to 
try to break down these barriers where people feel that they 
can't talk up the chain.
    I can tell you personally, I'm going out and reaching out 
to people, going to these roll calls and individually. We've 
got our Assistant Director of Investigations going out to the 
field talking to people. We've got our Assistant Director of 
Protective Operations going out talking to people. We've made 
all these avenues through ombudsmen, through hotlines and web 
pages to even anonymously get information up the chain. And why 
it didn't happen in this case, I don't know. If you're not 
comfortable, and our work force I'm sure is listening today, if 
you're not comfortable going up through your chain of command, 
you have all these other avenues anonymously. You can go and 
report incidents of misconduct, or whatever you want to report, 
but you've got to make use of these outlets.
    Mr. Cummings. Let me ask you this. How about the Assistant 
Director for Protective Operations, when did he learn about 
these allegations? Do you know?
    Mr. Clancy. I don't know--well, March 9th. March 9th, 
because when I found out. I found out the morning of March 9th. 
I reached out to the Assistant Director of Protective 
Operations. He did not know at that point. I asked him to go 
find what he knew about it, what he could find out about it.
    Mr. Cummings. All right. I understand there's an ongoing IG 
investigation, but according to your own testimony you did not 
learn about these allegations from anyone at the Secret 
Service. Correct?
    Mr. Clancy. That's correct.
    Mr. Cummings. I'm concerned about whether there's still a 
problem with the chain of command right now, and it sounds like 
there is. Based on what you know today, who is the highest 
ranked person who knew about this incident and failed to report 
it, to your knowledge?
    Mr. Clancy. To my knowledge, again, on March 9th is when I 
was given all the details we had, and we turned it over to the 
OIG. Then I stepped out of it. In all candor, right or wrong, I 
compartmentalize things, and I didn't want to see it. The 
Deputy Chief is the last one that was--that's how it went.
    Mr. Cummings. Well, on more than one time here this morning 
you said you had a meeting with your higher ups.
    Mr. Clancy. Yes.
    Mr. Cummings. And you told them, this is--you're not going 
to tolerate this. Did you ask them, any of them, did you all 
know about this?
    Mr. Clancy. No, I didn't. I was very blunt with what was 
my----
    Mr. Cummings. Whoa, whoa, whoa, whoa. Rewind.
    Mr. Clancy. Yes.
    Mr. Cummings. These are your top people. Right?
    Mr. Clancy. Yes.
    Mr. Cummings. Would that be the top--the eight Assistants?
    Mr. Clancy. There would be more than that in this room. At 
that point, there were----
    Mr. Cummings. But you never asked them, you didn't say, 
ladies and gentlemen, who knew about this?
    Mr. Clancy. I did not.
    Mr. Cummings. Why not?
    Mr. Clancy. At that point, I honestly did not want to 
interfere with this OIG investigation. I wanted no indication 
where I might be pressuring someone, no indication that we've 
reached out to people, or people to leave that room and say 
hey, the Director is asking for more information. I wanted to 
give this OIG complete ownership of this investigation.
    Mr. Cummings. Just one last question, Mr. Chairman. 
Director, at any time did you have a staff meeting where you 
would have expected--I mean, you know, you and I have talked 
about the sacred trust in Secret Service, these jobs of honor. 
Would you have expected--did you have any meeting amongst your 
higher ups where you would have expected somebody who knew 
about this to say it to you?
    Mr. Clancy. Absolutely. Absolutely. When I heard this on 
March 9th, I was in disbelief. I didn't believe it, but I 
called the ADMPO and said hey, look, run this out. But I 
honestly could not believe, especially over that timeframe.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Chaffetz. Now recognize the gentleman from 
Tennessee, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Director Clancy, all over this country there's been a 
growing belief for many years now that the Federal Government 
and many top-level Federal employees have been becoming more 
and more bureaucratic, elitist, arrogant, and there's--along 
with this, there's been a growing belief that we've ended up 
with a government that's out vying for the bureaucrats instead 
of one that is up vying for the people. And when you refuse to 
allow these four witnesses to come here and testify to us who 
are supposed to represent the people as best we can, when you 
refuse to allow these four witnesses to come, and you refuse to 
release most of the video that's been requested, you should 
realize that this looks very bureaucratic, elitist, and 
arrogant.
    And it looks as though you feel you're working--you're not 
really working for the people of this country, that you're 
working to protect the people of the Secret Service. And last 
week in the House Appropriations Committee, Chairman Rogers 
said in a very strong, very emphatic way that he felt there 
should be terminations and firings for all these incidents that 
have happened. And I hope that you agree with that.
    I assume that you are close friends with Mr. Connolly and 
Mr. Ogilvie, but I hope that you feel that you have more of a 
duty to the people of this country than you have a duty to 
protect Mr. Ogilvie and Mr. Connolly, and the others who have 
been involved in this other instance. What do you have to say 
about that?
    Mr. Clancy. Sir, you're absolutely correct, and I've 
already made changes in our agency of people that I know, and 
who served honorably, but I wanted a fresh perspective. Friends 
of mine, I have moved them, offered them positions in other 
components in DHS, so I'm not opposed to moving people that I 
know. It's all about the agency. In terms of
    Mr. Duncan. Well, that's one of the problems, though. Too 
often, Federal employees who really mess up, they aren't really 
disciplined. They're not cut in pay, they're not fired, they're 
not terminated, they're just moved to a nice desk job someplace 
else. And I've already been told that Ogilvie and Connolly have 
been moved to some other desk job someplace, and not much at 
all has been done to them.
    I'm going to yield the balance of my time, though, to Mr. 
Gowdy. I think he has another question or two that he wishes to 
ask.
    Mr. Gowdy. Thank the gentleman from Tennessee.
    Director, who has custody of the video that was retained 
and preserved?
    Mr. Clancy. Our Technical Security Division.
    Mr. Gowdy. And who has the power to make a copy of that 
video and turn it over to Mr. Cummings and Mr. Chaffetz?
    Mr. Clancy. Sir, I would in consultation with my legal 
counsel, but I've got to be honest with you. I don't know that 
for certain. I'm relatively new in the position. I'll have to 
go back----
    Mr. Gowdy. Well, to the extent that you do have the power, 
or you have influence over those who do have power, will you 
recommend that a copy of all video footage be made available to 
Mr. Cummings and Mr. Chaffetz?
    Mr. Clancy. Congressman, I'll certainly talk to our 
department and with our legal counsel.
    Mr. Gowdy. Well, you don't need lawyers for everything. I 
mean, you've got a bunch of them on this panel. And I'm telling 
you, if the only excuse they have for not turning it over is 
there some theoretical, potential investigation or prosecution, 
I promise Mr. Cummings and Mr. Chaffetz, they're not going to 
interfere with either one. I'll promise you that.
    Mr. Clancy. Yes, sir.
    Mr. Gowdy. So, we can eliminate that concern. Now, will you 
turn over all available video to Mr. Cummings and Mr. Chaffetz.
    Mr. Clancy. Again, the video will be available at all 
times, but I will go back to the department within our agency 
and revisit this.
    Mr. Gowdy. Do you know if there was, emphasis on the word 
``was,'' video footage of the alleged officer misconduct?
    Mr. Clancy. No, I'm not aware.
    Mr. Gowdy. You don't know whether any of the cameras were 
trained on the car that these two agents were in?
    Mr. Clancy. The only video I'm aware of, Congressman, is 
what we have provided as they entered the gate at the South 
Park.
    Mr. Gowdy. Well, do you have a policy of retention and 
preservation of any video that could be potentially part of a 
criminal investigation, or officer misconduct? Is that part of 
your policy?
    Mr. Clancy. Yes, we retain video that is related to any 
incident on the complex.
    Mr. Gowdy. So, if there were video of that, no one would 
have taped over it, or destroyed it.
    Mr. Clancy. The video would not have been destroyed if 
there was--if someone saw an incident somewhere else in the 
complex, yes.
    Mr. Gowdy. How about taped over, would it have been taped 
over?
    Mr. Clancy. Well, by practice, it's automatic. You have 
to--my understanding is, you have to selectively decide what 
you want to preserve; otherwise----
    Mr. Gowdy. Wouldn't potential officer misconduct be one of 
those things that you wanted to preserve?
    Mr. Clancy. Without knowing the facts, I don't know what 
took place beyond that entry point.
    Mr. Gowdy. I yield to the Chairman.
    Chairman Chaffetz. Thank the gentleman. The gentleman's 
time has expired. We now recognize the gentleman from 
Massachusetts, the Ranking Member of the Subcommittee on 
National Security, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I'm a little bit, more than a little bit put out by the 
willful ignorance here. You know, when you--let's just back up 
a second. The Secret Service is an intelligence gathering 
organization, and then you don't ask questions, and you destroy 
evidence.
    I guess the--I'm trying to have faith, I really am. And I 
offer no disrespect whatsoever. I think you're an honorable 
man, but I'll tell you, this whole system--you said at the tail 
end of your testimony that you had implemented a change to go 
to 7 days retention of video. Is that correct?
    Mr. Clancy. That's correct.
    Mr. Lynch. So, we went from 72 hours now to 7 days.
    Mr. Clancy. That's correct, with the intent to look at our 
storage capabilities to go beyond that.
    Mr. Lynch. All right. I'm actually going to--if we have to 
do it legislatively, the fact that the Department of Homeland 
Security requires Logan Airport to retain their video tapes, 
TSA, for 30 days, if I have to do it legislatively, I'm going 
to make a recommendation that we have--we adopt legislation 
that requires that Secret Service keep video for 30 days, if 
that's what we've got to do.
    Director Clancy, who is responsible, who is the individual 
responsible for Technical Security Division, because I want to 
send them a subpoena, as well. They're not on this list of 
folks that we had, but who's that person?
    Mr. Clancy. OK. Now, he is relatively new in the position, 
just----
    Mr. Lynch. That's OK.
    Mr. Clancy. Joseph DePietro is the Chief of the Technical 
Division now.
    Mr. Lynch. OK. So, would it be correct in me assuming that 
he is responsible for that whole surveillance around the White 
House, and the technology, the tapes, you know, the purging or 
scrubbing of the tapes, and all that? Is that the person I 
want?
    Mr. Clancy. Yes, he would be able to talk to those 
questions that you have.
    Mr. Lynch. OK.
    Mr. Clancy. Yes.
    Mr. Lynch. All right. And we would give him a subpoena 
deuces tecum, as well, to have him bring whatever information 
he has. That would be good.
    You know, I mean, the local Piggly Wiggly, my local 
supermarket has 30 days of retained tapes, so it's--you know, 
by scrubbing those tapes, not asking for questions, it just--
and coming from an intelligence gathering organization, it's 
just--it leaves me almost speechless. And I just can't imagine 
a more deliberate attempt not to understand the nature of the 
problem.
    Let me see. What's the penalty--now, it's clear from the 
tape that the two officers drove into an active bomb 
investigation. I don't think there's any question about that. 
Right? Mr. Ogilvie and the other gentleman, I'm blanking on his 
name, but the two agents.
    Mr. Clancy. Mr. Connolly.
    Mr. Lynch. Mr. Connolly. OK. So, you have an active bomb 
investigation going on, and they drive right into the--you 
know, they drive right through it. I guess they were going back 
to--they left their car at the White House, so they were going 
to get their car, I understand that. But in the meantime, they 
drove right through an active bomb investigation. Any 
disagreement on that?
    Mr. Clancy. I don't know the facts in terms of going to get 
a vehicle, but I know they absolutely drove through an active 
investigation.
    Mr. Lynch. OK. So, there's no question about that. And, 
yet, we reassign them, so we know that. We don't even ask them 
questions about that, and yet, we just reassign them to desk 
jobs. There's no discipline at all. What's the thinking behind 
that?
    Mr. Clancy. To put them on administrative leave, they would 
have administrative leave with pay, and I felt that we could 
still get some work out of them. And, also, I didn't want to do 
the discipline in a piecemeal fashion.
    Mr. Lynch. Well, I need to interrupt you right there. The 
signal that you're sending to every other Secret Service agent, 
Uniformed and PPD, is that those folks were not penalized at 
all for doing what they did. And so, you didn't remove them, 
you didn't remove them. You know, I think it would have been a 
clear signal to send to every other member of the Secret 
Service that those two guys screwed up, and they're gone for 
now. And we're going to hold them responsible. Instead, and now 
you're thinking about OK, they'll be sitting at home instead of 
working. But I think on balance, I think it was more important, 
especially with the history we've got here of folks shooting at 
the White House, and jumping over the fence, and it's like the 
Keystone Cops here. So, you know, I think it would be more 
important message to send to the employees that these guys 
screwed up, and they are being held accountable, rather than 
just putting them on a desk job.
    Mr. Clancy. And, Congressman, rest assured, once we get the 
final report which, again, I'm told will be weeks, people will 
be held accountable.
    Mr. Lynch. Yes.
    Mr. Clancy. And I can understand the frustration for many 
here on the Committee, as well as within our work force, but 
they're looking to see how are these things handled, and how do 
you handle agents as opposed to Uniform Division.
    Mr. Lynch. Yes.
    Mr. Clancy. So, I respect your view, sir.
    Mr. Lynch. I just want to--in closing, I just want to say 
there needs to be a rapid response to these incidents. We can't 
put this into a bureaucratic process where I get an answer in 8 
weeks, or 10 weeks.
    Mr. Clancy. Yes, sir.
    Mr. Lynch. That cannot happen. We need to--you need to have 
the ability to act right now on an incident like that, rather 
than, you know, file some forms, and bring in somebody else 
and, you know, engage in willful ignorance, and let somebody 
else handle the stuff.
    You're in that spot because you're very capable, and we 
need to--in the future, we need you to have the ability to act. 
I'll yield back.
    Chairman Chaffetz. Thank you gentleman. Now recognize the 
gentleman from North Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Clancy, thank you for your testimony. I want to return 
to what you said earlier about meeting with your senior staff 
and not asking what they knew. When did that happen?
    Mr. Clancy. Sir, it happened--forgive me, sir, my memory 
with everything else is converging. If somebody can--Wednesday.
    Mr. Meadows. Wednesday.
    Mr. Clancy. Yes.
    Mr. Meadows. Wednesday, what date?
    Mr. Clancy. That would have been the 11th.
    Mr. Meadows. All right. So, you met with your senior staff, 
but you waited until Wednesday to meet with your senior staff 
when you were informed of this on the 9th? Why would you wait 2 
days to meet with your senior staff?
    Mr. Clancy. I had a hearing on the day in between, and--Mr. 
Meadows. I have hearings every single day. It doesn't preclude 
me from asking detailed questions like that.
    Mr. Clancy. Forgive me, sir, let me correct the record. I 
did not have a hearing. I don't know what my schedule was, what 
I was doing on Tuesday.
    Mr. Meadows. So, why did you wait 2 days? Was it not 
important to you, Mr. Clancy?
    Mr. Clancy. No, as I expressed earlier, this is hugely 
important to me and to the agency.
    Mr. Meadows. All right. So, why did you--you said earlier 
you didn't ask a question what they knew. You're not 
interfering with an investigation for you to be informed of 
what they knew. That wouldn't have interfered with an 
investigation. Why wouldn't you have asked the question? Is it 
so that you could pull a Sergeant Schultz here today that you 
know nothing? I don't understand.
    Mr. Clancy. No. In fact, when I pulled that group together, 
this hearing was not scheduled. I did that because, again, I--
it's probably hard to understand for this Committee.
    Mr. Meadows. It is very hard for Mr. Lynch and I to 
understand how there would be a lack of inquisitive nature on 
why the Director would not want to know.
    Mr. Clancy. To be candid, I compartmentalized this 
incident. I gave it to the OIG so I could concentrate on--I 
have protectees all around the world, classified documents I 
have to keep up with, the President of Afghanistan. I've got 
all these other issues that really I need to focus on today and 
future threats, and this, in my mind, I----
    Mr. Meadows. Well, the President of Afghanistan may be very 
important and, indeed, he probably is, but the President of the 
United States is a lot more important, and I wouldn't 
compartmentalize and put that somewhere else. Would you?
    Mr. Clancy. All of our protectees are important, but 
certainly this--in my mind, I gave it to the OIG, and I was 
content to wait until we get all the facts and not do things 
piecemeal because I thought that was a dangerous path to take, 
to do things in a piecemeal fashion, because information starts 
to leak out, and information would have started to leak out. 
People would start----
    Mr. Meadows. So, keeping these guys there working on 
administrative duties, do you not think that they have the 
ability to talk to some of their fellow workers and spin a 
different narrative instead of sending them home, as Mr. Lynch 
had suggested? Do you think it's not dangerous that they might 
interfere with the investigation?
    Mr. Clancy. They could still converse, in my view, at their 
residences with anyone they wanted to, so keeping them----
    Mr. Meadows. So, you haven't told them not to converse and 
tell a different story.
    Mr. Clancy. I haven't spoken to those individuals.
    Mr. Meadows. So, these are GS-15, and you haven't spoken to 
them, why?
    Mr. Clancy. The two individuals----
    Mr. Meadows. Right. Why have you not spoken to them?
    Mr. Clancy. I didn't want to, again, interfere with the 
investigation. One is an SES and one is a----
    Mr. Meadows. Mr. Clancy, we-you were hired to clean up the 
mess.
    Mr. Clancy. Yes.
    Mr. Meadows. And you and I have met personally, before you 
were actually the official Director. And I told you about a 
number of things where I was actually getting emails.
    Mr. Clancy. Yes.
    Mr. Meadows. And I still get emails, anonymous emails on 
all kinds of different things that are happening, details in 
Honolulu where we've had some of the same accusations made that 
have been made in other parts of the country. Details where 
people have actually had major offenses and then were left 
within the Secret Service and allowed to retire a year later. 
What are you going to do, because I asked you specifically 
about forced transfers and how the threatening of taking away 
their security clearance for some of the rank and file, and yet 
nothing has been done with that, Mr. Clancy. Are you going to 
act on that eventually?
    Mr. Clancy. Yes. In terms of threatening to take away their 
clearances, I understand that was in a letter that went out to 
people when they were--routinely, we move people around the 
country, and it is----
    Mr. Meadows. It's used as a force of manipulation for most 
of the rank and file, at least that's the way they see it. And 
so, are you going to make sure that they know that their 
security clearance will not be taken away? Pure and simple, yes 
or no?
    Mr. Clancy. Their security clearance is not taken away as--
--
    Mr. Meadows. If they decide not to transfer, you're not 
going to affect their security clearance.
    Mr. Clancy. You can't do that, Congressman. We need to have 
people--for example, now the President's Detail needs 
additional personnel, so we have to move people from the field 
offices to the President's Detail. If they say no, I don't want 
to go to the President's Detail, now we're short on the 
President's Detail. So, we have to--it's the nature of our 
business, and they're informed of that when they're hired.
    Mr. Meadows. You know, this sounds like just the same old 
problem that we had under the previous Director, Mr. Clancy, 
and I'm very troubled. And I'll yield back.
    Mr. Clancy. Yes, sir.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
gentleman from Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you. And, Mr. Clancy, welcome to the 
Committee, and thank you for your service to your country.
    Mr. Clancy. Yes, sir.
    Mr. Connolly. I want to cite--well, first of all, I think 
there's bipartisan, a lot of bipartisan agreement on this 
Committee about a problem, obviously, at Secret Service, and I 
think that you're going to find there's bipartisan comity and 
agreement on an approach to how we resolve this.
    My friend, Mr. Gowdy, in his questioning raised a very 
interesting point, and I'm pretty sympathetic with his point of 
view, but I'm open to hearing a counter argument.
    You've got an OIG investigation going on, so they're got 
the tapes. Well, Congress has a constitutional role 
irrespective of what an OIG is doing. Now, the fact that we 
have the power to compel doesn't always mean we should use it, 
especially with an ongoing investigation. There are plenty of 
precedents for not doing that, for not dropping that hammer 
because we don't want to unduly interfere with a prosecution, 
or whatever it may be. But I will say, to underscore Mr. 
Gowdy's point, I think the burden is on you and your lawyers to 
make a case before this Committee representing the institution 
of Congress for why at this time it would otherwise corrupt an 
ongoing investigation.
    Absent such compelling testimony or rationale, it seems to 
me this Committee is entitled to those tapes for its own 
investigative purposes. We are an independent branch of 
government and we have every right to exercise our oversight. 
Hopefully, we do it responsibly, but I just--I'm telling you in 
my view, we're going to move forward on a bipartisan basis on 
this issue, not always the tradition of this Committee, but in 
this case, I think that's where we're heading, and I don't 
speak for the Ranking Member, but I join with him in his 
observations. And I just--a word to the wise, Mr. Clancy, 
that's where we're headed.
    Mr. Clancy. Congressman, I sense all of you, your outrage, 
all of you. And I will go back and revisit this with our folks 
and with the department, and see if we can accommodate the 
request. I've heard all of you loud and clear today with what 
we need to do.
    Mr. Connolly. I thank you. I'm going to try to get through 
five questions quickly, and hopefully you'll cooperate.
    Do you believe, given your new responsibilities, and I know 
you've got a lifetime invested in this very noble service with 
historic history. Is there, however, do you think parallel with 
that, or sort of superimposed on that noble tradition perhaps a 
creeping cultural problem that has to be addressed in your 
ranks? I think both the Chairman and the Ranking Member 
catalogued a history going back of unfortunate headlines.
    Mr. Clancy. Yes. Congressman, I think we do. I think, to be 
candid----
    Mr. Connolly. We do what?
    Mr. Clancy. We do have an element that has----
    Mr. Connolly. OK.
    Mr. Clancy. We do have a small element that has a culture 
of, in this case--in most of our recent cases, alcohol has been 
involved in the most recent cases. However, I will say that the 
OIG did a report, and I think 8 percent of our incidents 
involved alcohol. But irregardless, in our--looking back at our 
recent history, some alcohol has been used, so that is clearly 
something I'm concerned about. And we're looking at how to 
address that.
    In terms of the culture of not bringing information up 
through the ranks there, obviously, is a concern with that as 
all of you are getting these anonymous calls, or maybe not 
anonymous. Either way, that's something we've got to fix. And I 
know it's not a proper answer, but some of these things take 
some time, and it has to come with building trust, and it's 
communication, and we're trying to hammer this home. Give us a 
chance through communication.
    Mr. Connolly. OK. The 5-day delay, to what do you ascribe 
it? Was it bureaucratic inertia, or do you believe somebody was 
deliberately trying to withhold that from you so that--to 
preclude your taking action?
    Mr. Clancy. This is speculation on my part. I don't think 
anyone was intentionally hiding it from me, but at a lower 
level, if they felt that--I don't know how they viewed the 
incident. And the OIG, again, I'm sorry to keep leaning on him, 
but we'll find out those facts. I don't want to speculate for 
those at that level, that rank.
    Mr. Connolly. Obviously, it would be very troubling if it 
were the latter. Right?
    Mr. Clancy. Absolutely.
    Mr. Connolly. Bureaucratic inertia, we can manage through 
that and try to clean it up, but if somebody's deliberately 
stymying your ability to scrutinize, you know, an unfortunate 
incident that doesn't put us in a favorable light, then you've 
got a different problem, Mr. Clancy.
    Mr. Clancy. It would be a direct reflection of my 
leadership.
    Mr. Connolly. Well, it would be a direct challenge of your 
leadership. I don't know that it yet reflects your leadership. 
And that's another element of concern, I think both for us and 
for the public. We had a review panel that recommended strongly 
that the President should seek an outside Director for your 
position. He didn't take that advice. He chose you, because he 
had confidence in your, apparently. And there is an argument to 
be made that only an insider, a careerist like yourself, can 
actually make the tough decisions, knows where the bodies are 
buried, and doesn't put up with sort of nonsensical arguments.
    On the other hand, the counter argument can be yes, we'll 
put somebody in there who's co-opted, who couldn't possibly be 
a change agent, and isn't what we need. I'd like to give you 
the opportunity as my final moment of questioning to respond to 
that.
    Mr. Clancy. Well, thank you, Congressman. Let me just say, 
one of the things we've done since I've come in, it's not the 
same old upper tier of management. We have made some changes, 
and primarily because we wanted to take better advantage of our 
subject matter civilian experts. So, what we've done in the 
past, we've had a Director and a Deputy Director. Now we have a 
Deputy, just recently made a Deputy Director was named, but 
additionally at the same level, a Chief Operating Officer. 
We're reaching out for a Chief Operating Officer who will not 
be from within the agency. He or she will be from the private 
sector. And then underneath that Chief Operating Officer, who 
again is on equal level with the agent, the Deputy Director, we 
have a tier of several, a Chief Financial Officer, a Chief 
Information Officer, several other civilian experts in that 
side of the house, and we're integrating both of them. So, this 
is not the same old Secret Service from 1 month ago. In the 
short time, 30 days I've been here, we've made significant 
changes to the traditional culture and the structure of the 
upper management. And we are new, including myself, and I'd 
like to have some time to try to let that progress.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
Chairman of the Subcommittee on National Security, the 
gentleman from Florida, Mr. DeSantis, for 5 minutes.
    Mr. DeSantis. Director, I'm trying to figure out with this 
video policy, last week you said that there were three clips of 
the woman with the suspicious package, but only two clips of 
the agents in the vehicle, so why is there one more clip of the 
woman than of the agents?
    Mr. Clancy. Where the female was positioned, it's outside 
of that gate area, just outside, so that is specific to that 
incident with the suspicious package, and the confrontation 
between the officer and the lady. So, there are three very 
short clips of that and her actions.
    The other two clips are more--although, it captures the 
package, the suspicious package, but it also captures the 
agents nudging that barrel and coming through a secure zone.
    Mr. DeSantis. So, the third angle just would not have 
captured the vehicle. Is that why?
    Mr. Clancy. The first one would not have--well, there are 
two different timeframes. Yes, I can't answer that question, 
sir. I don't----
    Mr. DeSantis. OK. So, the--because on Mr. Gowdy's questions 
about allowing Congress access, you do not want to provide 
Congress with any of its own versions or copies that we could 
then look, review with the staff, and then determine the next 
steps that we may want to take with the investigation. Is that 
your position?
    Mr. Clancy. I just recently said that I will revisit it.
    Mr. DeSantis. OK.
    Mr. Clancy. I understand the outrage on this. Our initial 
offer was to be there whenever you needed to view it. We would 
provide it at any time day or night, but I understand that's 
not----
    Mr. DeSantis. OK, good. Yes, and I've been bouncing around, 
so I apologize, I did not hear that.
    Now, Mr. Gowdy also raised the issue of this Inspector 
General. And I know you're doing what you think you're required 
to do, but sitting here in hearings and across the whole 
Federal Government conducting oversight, the number of times 
when witnesses say well, that's the IG, you know. We can't do 
anything. We can't give you information, Congress, because of 
the IG. And I just don't believe that that was ever the intent 
of Inspector Generals to cause the rest of the world to stand 
still. I mean, we have an independent duty to conduct oversight 
over all these agencies. We are asked to fund the agencies, and 
I think the American people, obviously, need to know what's 
going on, so that we can make decisions about that.
    What is the timeline of the IG investigation?
    Mr. Clancy. I'm told weeks. Now, again, I haven't been 
conversing with the IG. I did have one call with the Inspector 
General, but I'm told that it would be a matter of weeks, not 
months.
    Mr. DeSantis. And he's also doing a kind of look-back 
investigation for some of the previous incidents. Is that 
correct?
    Mr. Clancy. I saw that somewhere in print, but I'm not sure 
we talked about that.
    Mr. DeSantis. So, that was not something that you asked the 
IG. You went to the IG with the incident at the gate.
    Mr. Clancy. Specifically, this incident, yes.
    Mr. DeSantis. OK. And then at that point--well, let me ask 
you this. With the witnesses that were invited, we had four 
witnesses that we asked to attend. They are not, obviously, 
here, so what is the reason for not bringing those witnesses 
here today?
    Mr. Clancy. There's a couple of reasons for that, right or 
wrong. They're the rank and file. They didn't sign up for 
coming in front of an open hearing with this--with the cameras, 
and lights. And I think it's my responsibility. It's my 
responsibility----
    Mr. DeSantis. But, did you--correct me if I'm wrong, but 
you have not allowed them to be interviewed behind the scenes, 
have you?
    Mr. Clancy. We have not. I understand the staffs may still 
be discussing that, and correct me if I'm wrong in this, but my 
understanding is that we're not doing that. Again, it goes back 
to interviewing people twice, you get different stories. Every 
time you interview someone, you get a little slight difference, 
not intentionally, but it could be perceived different. And we 
went through some examples of this in the closed-door hearing, 
but I think you should have one investigation, initially, to do 
their investigation, and then if there are gaps or whatever, 
then certainly others can followup.
    Mr. DeSantis. Well, I think that that's problematic. I 
mean, we have our own duty to conduct oversight, and the 
questions that we may ask from a congressional perspective may 
be different than what an IG would be looking at. And I think 
we're all interested in accountability, but how that 
accountability will be done within the executive branch will be 
different than how we, as a group that has received 
recommendations, that knows that there's going to be funding 
issues with this, of some of the issues that we would want to 
examine. So, I'm not satisfied that that is the way to do it, 
and I join the Chairman. I wish, you know, at a minimum that 
these witnesses would have been provided, at least behind the 
scenes so that we could have received some answers. And I yield 
back.
    Mr. Clancy. I will revisit that, sir.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
gentlewoman from Michigan, Mrs. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Chairman.
    Director Clancy, I looked for the core values of the Secret 
Service, and on the website it says that the agency has five 
core values, ``Justice, duty, courage, honesty, and loyalty. 
These values in the Secret Service which is worthy of trust and 
confidence. And that to reinforce these values, Secret Service 
leaders and employees promote and measure personal accountable 
and program performance across the agency by holding each 
person to the highest standards of personal and professional 
integrity. The Secret Service assures that they preserve the 
core values and the fulfillment of the vision and the success 
of that mission.''
    And then I'm always interested in leadership, and so I 
understand that you have 27 years as a veteran of the Secret 
Service. And during your career, you were a special agent in 
charge of the Presidential Protection Division.
    Mr. Clancy. That's correct.
    Mrs. Lawrence. You, yourself was in charge of that 
division. And that during your tenure of 27 years, you also 
served in the Secret Service Office of Investigation, the 
agency's Internal Affairs Division. Is that correct?
    Mr. Clancy. That's correct, for a brief time.
    Mrs. Lawrence. So, my concern after listening to all the 
testimony, and my question to you today, is that I recognize 
that you were brought into this office, or given this 
opportunity. You've been in the office a little more than 30 
days, but you were brought in in February of this year. 
Correct? And I would--in looking at your resume, I would think 
that experience like this would put you in a position where 
investigative skills, the knowledge of how a department should 
operate having--because you went up through the ranks, so you 
have actually performed the duties of the people you are now 
the Director of.
    But I hear things like I don't know, I'm outraged, that 
shouldn't have happened, yes, there is a culture. When you're 
put into the job, you're expected to bring all those skills and 
to provide leadership, and to be able to address issues and 
concerns.
    I'm really challenged right now. My question to you, with 
all of your experience, and with the continuing--because when 
you were brought on, we already had those issues that we have 
outlined today. What--how are you going to make a difference? I 
know that you said you need time, but when I hear you didn't 
talk to those who were your executive level to investigate 
this, when you, yourself were in charge of the agency's 
Internal Affairs, I would think that you would be really 
prepared to be able to dig right into that. And to sit here 
today and have a clear vision, and a clear mission under your 
leadership, how you're going to address these. And I'm not 
hearing that.
    So, my question to you today as a Member of Congress and of 
this Committee is, where is the vision, the leadership, and 
just the fierce commitment to these core values that you took 
yourself personally, that you now personally are in charge of 
making sure that that is the mission of this agency? I need you 
to give that to me, because I'm not hearing it.
    Mr. Clancy. Congresswoman, in my opening Statement I said 
this is my life's work. I've spent most of my life, 27-28 years 
protecting four Presidents. I've given everything I had at 
great expense, personal expense, to insure that our protectees, 
our Presidents are safe. I didn't come back from private 
industry to just enjoy the ride. This is critical for me, it's 
critical for the country. I'm going to give it everything I 
have. I'm immersed in it, I spend hours talking to people at 
all levels, and we're pushing it out to this new leadership 
team that we've just built. We built this new leadership team, 
we're bringing up the professional people to marry the 
responsibilities of law enforcement, get them working together.
    This is a new look. We're trying to reinvigorate the look 
of the Secret Service. And, unfortunately, I can't--I don't 
have a magic wand. It's going to take a little bit of time, but 
one of the things that's going to be key here is once this 
report is done, our people are held accountable. And we have 
this Table of Penalties that we'll work with, and it's based on 
what other agencies use, and we've only had it for about a 
year, but we will definitely be holding people accountable. And 
that's what our people want to see. You know, when you go 
around and ask why is their morale down, there's several 
reasons. Quality of life is one of them, but the other thing is 
we're not holding people accountable in a consistent manner. 
And I think that's what one of the members said here today, so 
that's our first test. Are we being consistent with the way we 
hold people accountable? And insure we followup with that 
accountability.
    Chairman Chaffetz. I thank the gentlewoman.
    Mrs. Lawrence. I yield back my time, but results is what 
will measure your leadership.
    Mr. Clancy. Yes.
    Mrs. Lawrence. Thank you.
    Chairman Chaffetz. Thank the gentlewoman. Will now 
recognize the gentleman from South Carolina, Mr. Mulvaney, for 
5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman. Thank you, Mr. 
Clancy, for being here.
    I'm going to ask you a couple of specific questions about 
the incident that we've been discussing here today, and then 
we'll talk more generally, I think, about the agency.
    As best I can tell, a layman summary of this is that a 
woman dropped off what she said was a bomb at 10:24 on a 
Wednesday night. Yet, it looks like the Be On The Lookout order 
didn't go out until Thursday afternoon at 4:15. Is that--does 
that delay surprise you? Is that ordinary course of business? 
Is that unusual?
    Mr. Clancy. I can't confirm. I'm going to ask my staff if 
that's the actual timeframe for that to go out.
    Mr. Mulvaney. Well, let's assume for sake of discussion 
that it is. Would that be too long?
    Mr. Clancy. It would be too long.
    Mr. Mulvaney. Have you all looked into why, because I can 
assure you it did take that long. I'm looking at the document 
in front of me. I'd be happy to share it with you, but have you 
investigated why that happened yet?
    Mr. Clancy. Our Investigative Office certainly will 
investigate why. They're going to look at the whole process.
    Mr. Mulvaney. OK. But you've talked to your folks about 
this. Right? I mean, you said you talked to your senior folks 
about it. You've done perhaps not a formal investigation, but 
you've asked them why. Right?
    Mr. Clancy. On the incident involving the lady throwing the 
suspicious package, I have talked to our people about that, 
been briefed on the incident.
    Mr. Mulvaney. But you still don't have any idea why it took 
that long to put out the Be On The Lookout Order?
    Mr. Clancy. I don't know why it took that long, no.
    Mr. Mulvaney. And then--and, again, I'm just coming to this 
issue for the first time. You found her, Friday morning, the 
woman who threw a package at the White House, and then ran over 
a Secret Service agent with an open car door as she was 
speeding away. Well, you found her on Friday morning at a hotel 
in Virginia. Your agents talked to her in the lobby of the 
hotel while she's having breakfast and they didn't detain her. 
Were you aware of that?
    Mr. Clancy. I am aware of it after being briefed, yes.
    Mr. Mulvaney. Why didn't they detain her?
    Mr. Clancy. I'm going to make an assumption here. Other 
than the fact that there was no arrest warrant out, the arrest 
warrant came out the following day, I believe.
    Mr. Mulvaney. How long should it take you to get a warrant 
for somebody who throws a bomb at the White House?
    Mr. Clancy. Well, the other factors here, again, making an 
assumption, is that at this point we know there are--we know 
that she has a history with the Secret Service, and she has 
been interviewed in the past.
    Mr. Mulvaney. She does have a history, so you knew who she 
was. The arrest warrant, by the way, didn't go out until the 
following Tuesday. It took you 7 days to get the warrant to 
arrest this lady, which takes me to the next step in the 
timeline. On Saturday, she was arrested by local police in 
Virginia, and the local police called your PIOC, and the PIOC 
told the local police that the suspect is no longer a Secret 
Service--on the Secret Service Lookout. Were you aware of that?
    Mr. Clancy. I was not.
    Mr. Mulvaney. Does that strike you as something unusual and 
strange, and perhaps wrong?
    Mr. Clancy. It does. I'm not sure why she would not be a 
lookout.
    Mr. Mulvaney. And I guess we--I don't want to pile on, Mr. 
Clancy, because I know it's been a rough day for you, but I 
would hope that--this has been a month now since this happened. 
You knew it was a high-profile event, and granted a lot of the 
attention went to what happened with the officers that evening, 
but still, a woman threw a bomb at the White House, at least 
something she said was a bomb when she dropped it off. It 
turned out that it wasn't. And for you at this point, sir, not 
to know these details is a little disappointing to me, but 
we'll leave that for another day.
    Let me ask you my general question. You've been there 27 
years. You seem like a very dedicated public servant, and I 
thank you for your service. I think people undervalue folks 
like you and what you do for this Nation. Has it always been 
this bad?
    Mr. Clancy. No, sir.
    Mr. Mulvaney. What changed?
    Mr. Clancy. Sir, I've got--I don't know that answer. I wish 
I did. I know there was great dedication when I was younger, 
and I think there is--I know there's great dedication now.
    I honestly believe it's a smaller element of people that 
are not satisfied. And, again, it goes back to how we're 
treating our people, you know. And they're getting crushed, 
some of them, with the hours because the staffing is so 
limited. And we're up for some real challenges as we go into 
the fall here with the Pope's visit, and the U.N. That is going 
to be a tremendous challenge which, again, is going to create a 
tremendous burden on our work force. And I think that's part of 
it, too.
    I think that the demands on the work force as our mission 
has somewhat expanded, but primarily our staffing levels 
haven't kept up. And I think that's affecting our morale, but I 
don't want to dismiss the leadership. You know, leadership is a 
key part of this, too, and that's something that I've got to 
correct and have got to work on. But the staffing levels which 
we're making some headway to, I think that's going to help over 
time.
    Mr. Mulvaney. Let's look at that together. Let me ask you 
one last question, Mr. Clancy, just out of curiosity. Was it 
better when you all were under Treasury? Is that part of the 
problem here, that you're under Homeland now, and not Treasury?
    Mr. Clancy. Again, I was a young agent, a young manager 
when we were under Treasury, so I don't know those 
relationships and how that worked during that timeframe, so I 
wouldn't be able to give a good answer on that.
    Mr. Mulvaney. Thank you, sir. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman. Now recognize the 
gentlewoman from the Virgin Islands, Ms. Plaskett, for 5 
minutes.
    Ms. Plaskett. Yes, good morning. And thank you very much, 
Chairman and Ranking Member. Mr. Clancy, thank you so much for 
your time here.
    My questions really go along the same line, but a much more 
condensed timeframe, as my colleague, Mr. Mulvaney. And I 
wanted to really talk with you about allegations that are out 
there, as opposed to facts. I have a real problem with people 
putting information out that is not substantiated by direct 
facts, so I wanted to talk about this anonymous email, and some 
of the allegations that are in it.
    We understand that you received this anonymous email 5 days 
after the fact. Correct?
    Mr. Clancy. That's correct.
    Ms. Plaskett. And you're now very familiar with this, and 
it was given to this Committee yesterday. And I wanted to walk 
you through some of the allegations that were in there to see 
what you have been able to ascertain as being factual, as 
opposed to those which are not credible, or you still do not 
have information about.
    In the email, it says at some point an ATSAIC from WFO, 
George Ogilvie, and a PPD DSAIC, Marc Connolly, drove through a 
crime scene tape. Now, I'm going to get back to that 
allegations of a crime scene tape specifically, but later on it 
says the officers at the scene said that they were both 
extremely intoxicated. They were coming home from Ed Donovan's 
retirement dinner.
    Were they, in fact, coming home--coming, returning from a 
retirement dinner? Do you know that?
    Mr. Clancy. I know there was a retirement dinner that 
night. I don't know if they were coming from the retirement 
dinner.
    Ms. Plaskett. You haven't been able to ascertain the list 
of the guests or individuals who were there?
    Mr. Clancy. I have not. I stepped away from it, for the 
OIG.
    Ms. Plaskett. OK. But the OIG is looking into that.
    Mr. Clancy. Yes, they are.
    Ms. Plaskett. All right. And they apparently flipped on the 
lights of their GOVs to go around the roadblocks. What's a GOV?
    Mr. Clancy. It's a Government-Owned Vehicle.
    Ms. Plaskett. So, they were in government vehicles coming 
back to the White House.
    Mr. Clancy. That's correct.
    Ms. Plaskett. And they went--did they, in fact, go around 
the roadblock? What does that mean?
    Mr. Clancy. I don't know that. It would be an assumption on 
my part. I know that when they arrived at the gate on E Street 
and 15th Street, there was a barrel there that was placed there 
by our officers to secure the zone, and they did go through, 
they moved that barrel over.
    Ms. Plaskett. OK. Well, it says--the email says apparently, 
flipped on the lights. Does that mean--you know, I've been an 
investigator and a prosecutor. Apparently means that the person 
doesn't know themselves. What do you think? Were they--do you 
believe that this individual who sent this email was, in fact, 
there at the scene?
    Mr. Clancy. I can only--I don't know that, because I don't 
know if the lights were flipped on or not. You know, reading 
that, it sounds like it's secondhand information, but that 
would be an assumption on my part.
    Ms. Plaskett. That's what I get out of it. And that the 
agents nudged the barrel, as opposed to--we have heard nudged, 
we've heard crashed. Which one was it?
    Mr. Clancy. It was more of a nudge. It was on the right 
side of the bumper. It was----
    Ms. Plaskett. And why would you call it a nudge, as opposed 
to a crash?
    Mr. Clancy. Because there was--the barrel didn't crossover. 
It wasn't--it was more of a purposeful move, it wasn't losing 
control of a vehicle. It was a very delicate movement of the 
barrel with the vehicle.
    Ms. Plaskett. How fast were they going?
    Mr. Clancy. One to two miles an hour.
    Ms. Plaskett. So, to crash something would probably require 
a much greater speed.
    Mr. Clancy. Yes, the barrel would have been tipped over.
    Ms. Plaskett. OK. Now, I want to talk about a specific time 
period. We have, and you tell me if I'm correct with these 
times, at 10:24 the suspect drives up. Correct?
    Mr. Clancy. Yes, that's correct.
    Ms. Plaskett. And then at 10:30, the Joint Operation Center 
notifies the Metropolitan Police Department.
    Mr. Clancy. Yes, that's correct.
    Ms. Plaskett. 10:32, they report the--the Uniform Division 
reports the incident to the Joint Operating Center. Right, 
10:32?
    Mr. Clancy. I don't have the timeline in front of me, but 
yes.
    Ms. Plaskett. And then at 10:47, a notification message 
goes out. Right, at 10----
    Mr. Clancy. According to the timeline, yes, I believe.
    Ms. Plaskett. OK. Now, at 10:47 the PIC sends a 
notification message regarding the suspicious package.
    Mr. Clancy. Yes.
    Ms. Plaskett. And then at 11:12, the PIC issues the first 
of two notification alerts regarding the suspicious package.
    Mr. Clancy. Yes.
    Ms. Plaskett. OK. What is the difference between the one at 
10:47, a notification message, and the 11:12, the notification 
alerts?
    Mr. Clancy. 11:12, the alerts should be the same. They're 
both Protective alerts to alert the Director staff that there 
is a suspicious package, or there's an incident at the White 
House, or whatever the incident is. So, they are updates to the 
original alert.
    Ms. Plaskett. OK. And when did the officers arrive on the 
scene?
    Mr. Clancy. Metropolitan arrived----
    Ms. Plaskett. No, the two officers in question.
    Mr. Clancy. Oh, the two officers in question arrived at----
    Ms. Plaskett. 10:58.
    Mr. Clancy. 10:58.
    Ms. Plaskett. 10:58, so they didn't know that there was a 
scene there, did they, at 11:12 when the notifications went 
out?
    Mr. Clancy. They should have. They would have received the 
notification. Typically, senior staff would receive these 
notifications, so they should know. And the assumption is they 
saw the barrels there, and they should know.
    Ms. Plaskett. But was, based on the emails, was there crime 
scene tape? Was there any notification, was there anything 
there that would have let them know that this was a scene, a 
crime scene?
    Mr. Clancy. From the video that I looked at, the Committee 
has looked, I don't remember seeing any crime tape or any tape. 
There may have been some out there, but I just--I didn't see it 
in the video that I saw.
    Ms. Plaskett. OK, thank you, Mr. Chairman, for your 
indulgence with the time. It just appears that this anonymous 
email does not, necessarily, comport with the information that 
we have.
    Chairman Chaffetz. That is why we need to see the tapes.
    We will now recognize the gentleman from Georgia, Mr. Hice, 
for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Clancy, who is required, under the policies of the 
Secret Service, to report misconduct?
    Mr. Clancy. Anyone can report misconduct.
    Mr. Hice. OK. We have a slide in that regard. So my 
question is not, can anyone report misconduct, but who is 
required to do so?
    Mr. Clancy. Every supervisor is required--is required to 
report misconduct.
    Mr. Hice. OK. And if a supervisor fails to report 
misconduct, there are penalties.
    Mr. Clancy. Yes.
    Mr. Hice. And we have another slide. OK.
    Mr. Clancy. That is correct.
    Mr. Hice. All right. So these slides are accurate in terms 
of what is required and the punishment, the penalty, if policy 
is not followed.
    On the night of March 4, Captain Michael Braun was a watch 
commander overseeing the White House. Is that correct?
    Mr. Clancy. That is correct.
    Mr. Hice. OK. And in a nutshell, what does the ``watch 
commander'' mean?
    Mr. Clancy. The watch commander is the on-duty supervisor 
for the White House complex.
    Mr. Hice. OK. So the on-duty supervisor in charge that 
night. Who does the supervisor, the watch commander, report to?
    Mr. Clancy. He reports to the--to an inspector in uniformed 
division.
    Mr. Hice. OK. Who does the inspector report to?
    Mr. Clancy. The inspector reports to the Deputy Chief in 
uniformed division.
    Mr. Hice. Which would be who?
    Mr. Clancy. Which would be Alfonso Dyson.
    Mr. Hice. OK. Who does Deputy Chief Dyson report to?
    Mr. Clancy. He reports to the special agent in charge of 
the President's detail.
    Mr. Hice. Which would be who?
    Mr. Clancy. Robert Buster.
    Mr. Hice. OK. Now, you have confirmed that the incident was 
reported. Is that correct?
    Mr. Clancy. The----
    Mr. Hice. Yes. The incident on March 4, it was all 
reported. Did it go through the proper chain of command?
    Mr. Clancy. It was reported up to the Deputy Chief of the 
White House complex, Mr. Dyson, and from that point on I don't 
know what notifications were made.
    Mr. Hice. OK. Were the reports that were made done so in a 
timely manner? When were they reported?
    Mr. Clancy. And, again, there is two separate incidents, 
though. If you are talking about the misconduct, I know that it 
stopped at----
    Mr. Hice. Or, really, both. I mean, the question, I am 
trying to determine if we are following the proper chain of 
command----
    Mr. Clancy. Right.
    Mr. Hice [continuing]. And doing so properly.
    Mr. Clancy. The incident involving the throwing of the 
books, that followed the proper chain of command. The incident 
involving the misconduct, it did not follow.
    Mr. Hice. It did not. OK. And so it did not. Could it be 
that it did not follow the proper chain of command for the 
misconduct because he was a superior officer, a superior agent? 
Could they have been intimidated, fearful, or even instructed 
not to report Mr. Connolly?
    Mr. Clancy. I can't answer that, but I am sure when they 
interview the watch commander that would come out. But I 
don't--I can't answer that. I don't know.
    Mr. Hice. Don't you think you should know?
    Mr. Clancy. Well, I will know once the investigation is 
completed.
    Mr. Hice. OK. What would have happened to this crime scene 
had it been disturbed by someone other than Secret Service 
agents? Would anything have been handled differently? What if 
someone driving a car ran into the area?
    Mr. Clancy. Yes. I would say they would be interviewed--
they would be detained, they would be interviewed, and see if 
there was intent. Did they know what they were doing? Was there 
intent to disrupt the zone?
    Mr. Hice. But that did not happen if it is an agent. So is 
one set of policies for an agent, which is basically nothing, 
versus had it been a civilian, the entire scenario would have 
been treated differently?
    Mr. Clancy. Again, not knowing all the facts, it may have 
been longer----
    Mr. Hice. But that is what you seem to be indicating. Had 
it been someone else----
    Mr. Clancy. Yes.
    Mr. Hice [continuing]. It would have all been treated 
differently.
    Mr. Clancy. Yes.
    Mr. Hice. Do you have policies for agents who are 
intoxicated?
    Mr. Clancy. Yes. If you are driving under the influence and 
operating a motor vehicle, there are penalties for that.
    Mr. Hice. Do you believe that the agents who responded to 
this incident should be reprimanded for any failure not to 
report according to policy?
    Mr. Clancy. Now, I am prejudging here, but--the 
investigation, but if they--if we find that people did not 
report to their--all the way up through the chain of command, 
absolutely.
    Mr. Hice. But you have already admitted----
    Mr. Clancy. Absolutely.
    Mr. Hice [continuing]. You have already admitted that that 
did not happen.
    Mr. Clancy. Yes. I can't say that I know that it went to 
the Deputy Chief, but I don't know where it went after that.
    Mr. Hice. But there was a breakdown. So there was 
obviously----
    Mr. Clancy. Well, there is a breakdown, yes, sir.
    Mr. Hice [continuing]. A breakdown.
    Mr. Clancy. Because I----
    Mr. Hice. Yes. OK.
    Mr. Clancy [continuing]. I didn't hear about it. Yes, sir.
    Mr. Hice. And so you have also admitted that there should 
be reprimands.
    Mr. Clancy. Yes.
    Mr. Hice. What reprimands have taken place to this point 
for those agents who did not properly report?
    Mr. Clancy. None to this point, sir, because, right or 
wrong, I don't want to piecemeal some of these disciplinary 
actions. And I want to wait until I hear all the facts, too, 
because there is a lot of hearsay out there right now, and I 
would like to get the one definitive report.
    Mr. Hice. You have Stated a significant number of facts, 
and there has still been no reprimand. I find that inexcusable, 
sir.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman.
    We will now recognize the gentlewoman from New Mexico, Ms. 
Lujan Grisham, for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    Mr. Clancy, I recognize that this is a difficult 
environment, and I have to say that I think there is general 
agreement by both sides of the aisle in this Committee, and in 
other committees of jurisdiction, that this is a significant 
series of issues that affect the Secret Service, and then 
ultimately affect the security and safety of the Commander-in-
Chief, and largely everybody else in the White House, and the 
credibility of the country as a whole about our ability to 
provide that level of protection and security here and 
currently abroad.
    And I also know that no amount of money will fix an 
environment that is like the environment that you are 
describing, where there are questions of accountability, 
transparency, whether there are reprimands, whether those are 
fair, whether it is clear that you have got low morale, that 
folks aren't reporting incidents.
    You have said--while you are having an independent review, 
you did say that the chain of command on the face was not 
followed, and I would have to agree that even if you get 
ancillary and additional information that that, in and of 
itself, warrants some action. And there may be other actions as 
you garner more information about what is coming. And so I 
believe that without a sustained and concerted effort to change 
the culture of the Secret Service that nothing will change.
    Now, I say this because I have headed a difficult culture 
change in my career when I was the Department of Health 
Secretary, and it requires rigorous, constant work, and a clear 
timeframe where you are evaluating whether or not those culture 
shifts are making a difference. And while it is--I understand 
that you are making administrative changes, that there will be 
some new folks, if you are not careful and that is all 
administrative, you still aren't going to attract the right 
kinds of shifts in a culture change in that--in the Secret 
Service.
    And I also recognize that you have got a very difficult 
job, and that we expect you, because that is part of your job, 
you have to restore not only the operations but our trust, and 
the public's trust, that you can do that. I also know it is an 
honor and a privilege to work for the Secret Service.
    So here is the question. Tough environment, we don't feel 
like we are getting the right answers. You are trying to have 
some independence, but we are not seeing the kind of work day 
to day that would indicate leadership on culture change. Give 
me some substantive, clear examples, more than the CAO, about 
what you are doing to instill a culture shift in the Secret 
Service.
    Mr. Clancy. No. 1 is staffing. We know that our people are 
being overworked, and we are trying to buildup their staffing 
and, once we do that, give them more training, so that they 
can--if they receive this training, they are going to feel more 
pride in their work I think, be more efficient, and just 
operate better.
    We have also initiated about 5 weeks ago, 6 weeks ago now, 
a work life initiative, where we are reaching out to our work 
force to see what is troubling them, what do they need from us, 
what suggestions do they have. We have brought in an outside 
contractor to do this. We expect to hear some very promising 
results.
    But I would say also that some of these changes we are 
making, including the COO and the CIO, et cetera, the chief 
financial officer, those changes are going to have an impact on 
the work force.
    Ms. Lujan Grisham. I am not getting a sense, though, about 
that timeline. And I am not saying I disagree that those 
investments are important, but I am going to disagree that you 
need to give me something--I would like something about your 
management style.
    If there is not accountability for every investment that 
you make in supporting that work force, which I agree you have 
got to have a work force that feels like they are supported, 
but they also have to feel like it is a fair work environment. 
And if there is no accountability or transparency, I don't 
believe that you will have the changes that you desire. What 
kind of management style, what is the message that you are 
providing today to the Secret Service?
    Mr. Clancy. We are reaching out in ways that we haven't 
done it in the past, to hear our work force, all of our 
executives are getting out to talk to the work force, an 
investigation. In fact, next week I am going----
    Ms. Lujan Grisham. So accountability is not part of your 
management style.
    Mr. Clancy. Oh, absolutely, it is.
    Ms. Lujan Grisham. I mean, I am not hearing that from you, 
Mr. Clancy.
    Mr. Clancy. Well, accountability--and, again, once this 
investigation is completed, then we will see what 
accountability is administered. And we do have this table of 
penalties, which is very strict, we have to follow, and it 
shows that we are serious about holding people accountable.
    So there is no making decisions on our own here, how do we 
discipline; we have it in stone and it is modeled after other 
agencies. So, and you are right, that is what our people want 
to see--accountability, fairness across the board.
    Ms. Lujan Grisham. I am still concerned, I have to say.
    With that, I yield back. Thank you, Mr. Chairman.
    Chairman Chaffetz. We thank the gentlewoman.
    We will now recognize the gentleman from Georgia, Mr. 
Carter, for 5 minutes. Mr. Palmer, pardon. Mr. Palmer.
    Mr. Palmer. Second straight hearing where I have been 
misappropriated to the wrong State. My jurisdiction has 
expanded.
    Thank you, Mr. Clancy, for coming in today. There is many 
reports that suggest the Secret Service morale is at an all-
time low. According to the Best Places to Work in the Federal 
Government Report, the agency ranks 226 out of 300 agencies. 
There are routine requests for uniformed division officers to 
work on their days off, and the Secret Service's failure to pay 
proper overtime.
    This is particularly troubling in the context of what we 
have been discussing, because when you have low morale at what 
was once one of the most respected agencies in the world, it 
seems to be indicative of a climate and an environment not 
conducive to excellence and, in some respects, not conducive to 
integrity.
    How do you respond to that?
    Mr. Clancy. Well, you are exactly right. When I went to 
this roll call the other night, the first question when I 
asked, what are the issues here, what do you need and why, why 
are we having these issues? And the staffing was the first 
thing they said. They said, ``We can't get a day off.'' To get 
a day off in uniformed division, very often you have to put in 
a leave slip to--sick leave, because--and you may have a very 
important function within your family.
    Now, we all grow up with that. You know, you miss your 
anniversaries and birthdays, and all that, growing up, but it 
is more exasperated now, especially within uniformed division. 
They are routinely held over for an additional 4 hours or their 
days off are canceled, and that is one of the most important 
things we have got to address.
    Mr. Palmer. Let us talk about the excessive overtime. And 
this was brought up in a previous hearing and the lack of 
training. I think they said that uniformed officers were 
getting 25 minutes of training, and that the protection detail 
previously had been spending 25 percent of their on-duty time 
in training. It is now down to 2 percent.
    Does that not indicate that you have got a staffing 
problem? And not only that, in the context of what has 
happened, the quality of the people that you are recruiting--I, 
frankly, don't understand why you are advertising for Secret 
Service agents on bumper stickers instead of going to college 
campuses and recruiting the best and brightest that you can 
find.
    Mr. Clancy. Well, first of all, we have corrected that. We 
have asked for funding to go out to these universities, to the 
military bases, and do a better job of recruiting. I will say, 
we get still, last I heard, 40,000 people apply for a special 
agent position. So we are getting a lot of people, but trying 
to get the right people, it takes us a while to get to them.
    Mr. Palmer. All right. In that regard, though, Deputy 
Assistant Director James Helminski sent an email to all of the 
Secret Service field offices saying that because of an upcoming 
class the Secret Service was trying to fill in March, all 
background investigations had to be completed within 3 days. I, 
in a previous position, had a national security clearance, and 
I can promise you that they did not do the background check in 
3 days. Are you familiar with this email?
    Mr. Clancy. I am not familiar with that particular email. I 
know typically they are given 14 days, and I think there is 
some talk to bring it back to 10 days, to speed up that 
background check. But they still go through the polygraph 
examination, they still go through several other steps.
    Mr. Palmer. Ten days, though. Even 10 days, you know----
    Mr. Clancy. Yes, right.
    Mr. Palmer [continuing]. When you are responsible for 
safeguarding the President and his family and other members of 
the executive branch, does it make sense to have in this case a 
3-day background check?
    Mr. Clancy. No. Let me just say this, that there are 
specific requirements in that background check, so they have to 
be met. We don't lessen the requirements. And, again, it is 
about a 7-month or 8-month process to ensure that we get right 
people, good people. They are fully vetted, and that is one of 
the reasons why it takes a while to get our staffing levels up.
    Mr. Palmer. You have had some foreign nationals----
    Mr. Clancy. And, yes, clearance. Yes, sir.
    Mr. Palmer [continuing]. You have had some foreign 
nationals apply, and in one case you had a Chinese-born foreign 
national who had--apparently had her review expedited in the 
Washington field office, despite the fact that it wasn't 
confirmed whether or not she had renounced her Chinese 
citizenship. What is the Secret Service's policy for someone 
who applies--a foreign national who applies who has dual 
citizenship?
    Mr. Clancy. I don't have that answer. But to be an advisor, 
you have to renounce your citizenship, renounce your 
citizenship. Mandatory.
    Mr. Palmer. I realize that this country is a melting pot, 
but does it make sense that we are not--that we are recruiting 
foreign nationals to serve in the Secret Service?
    Mr. Clancy. Yes. You have to be a U.S. citizen. That is--to 
be employed by the Federal Government.
    Mr. Palmer. I believe my time has expired. Thank you, Mr. 
Chairman.
    Chairman Chaffetz. Thank the gentleman from Alabama, great 
State of Alabama.
    Mr. Palmer. Thank you, Mr. Chairman.
    Chairman Chaffetz. Now recognize the gentleman from 
Wisconsin, Mr. Grothman, for 5 minutes.
    Mr. Grothman. Thanks much. First of all, I want to just say 
I disagree a little bit for one of my Statements of one of my 
colleagues. It doesn't bother me if some of your guys don't 
have college degrees. That is overrated. I know so many great 
people without college degrees.
    But let me ask you some questions, digging a little bit 
more about this situation with this woman's vehicle. According 
to Metropolitan Police, they weren't contacted until 30 minutes 
after she fled the scene. Is that an accurate Statement?
    Mr. Clancy. I don't know if that is accurate or not, sir.
    Mr. Grothman. OK. I would look into it, because at least 
that is what I have here on my paper. And, I mean, to me if you 
had two law enforcement divisions--you know, say in my neck of 
the woods the county and the city--and somebody was fleeing 
into the county, man, the sheriff's department would be 
notified immediately. I mean, it is kind of scary if it took 
them 30 minutes.
    Mr. Clancy. I would just say that I know they in a very 
short period of time I think reached out for the bomb explosive 
unit, so it should have been in that same timeframe that the 
police force was notified.
    Mr. Grothman. Maybe my stuff here is wrong, but check into 
it. Did you have a copy of her license plate right away?
    Mr. Clancy. They had a license plate.
    Mr. Grothman. OK. Did the officer--did you find somebody 
show up like right away where she lived, assuming there was----
    Mr. Clancy. My understanding is that the license plate is 
what helped identify who this individual was.
    Mr. Grothman. Right, right, right. And I assume that once 
you know who the person is at least they have an address on 
file. Did somebody show up at the----
    Mr. Clancy. Yes.
    Mr. Grothman [continuing]. House?
    Mr. Clancy. They showed up at the spouse's address in the 
Philadelphia region, and we had agents go out to that residence 
and talk to the spouse, who indicated that this lady was down 
in the Washington area.
    Mr. Grothman. OK. What was their name?
    Mr. Clancy. I can't say that in a public hearing. I will be 
happy to give it to you later.
    Mr. Grothman. OK. What else can I say? For every open spot, 
how many applications do you get for Secret Service?
    Mr. Clancy. When I first came back here at the Acting 
Director, I was told that for a special agent vacancy 
announcement we had 45,000 people apply, and very few actually 
made it through the process.
    Mr. Grothman. OK. Like ``very few'' means how many?
    Mr. Clancy. I am told there are about 70 that made it 
through the process. Now, that is on USAJobs, 45,000, and so it 
was very cumbersome.
    Mr. Grothman. OK. But you get 70 people who at least make 
the first thing for everybody--everybody in there. You have 
said a lot of these problems are alcohol-related, which is kind 
of scary, but you were not familiar with how to deal with them. 
I guess it kind of bothers me because like I have a lot of 
trucking companies in my district.
    Mr. Clancy. Yes, sir.
    Mr. Grothman. And you can't drink at all. And, 
nevertheless, these guys never seem to have huge problems 
finding guys to drive a truck who don't have an alcohol 
problem. And I guess I will just suggest you talk to some of 
the local trucking firms. And if, you know, you guys are having 
a hard time finding guys without alcohol problems, you can ask 
them how they do it.
    Mr. Clancy. Well, first of all, we have changed the policy 
driving--within 10 hours, you cannot enter a government-owned 
vehicle or a leased vehicle. That policy has gone out. We 
revisited that and--yes.
    Mr. Grothman. OK. I would just wrap up with one more thing 
and kind of a followup on what Congressman Palmer said there. 
When I was a kid, I mean, the Secret Service was the top of the 
top. I mean, if you heard the Secret Service was coming to 
town, you really felt you had an elite institution.
    And, you know, you go through the stuff in the file when 
they got their name in the paper the last four or 5 years, it 
is kind of embarrassing. I mean, it is almost like a screen 
play for some comedy or something like that. So just good luck 
in your new job, and hope you can do something to bring back 
the pride, and just explain to the guys you are working with, 
and gals that you are working with, that right now it is like--
like I said, you look at it, it is like it is some comedy movie 
starring Phil Silvers or something or other.
    Mr. Clancy. Congressman, thank you, and I will say that as 
we are focusing on certainly the negative aspect that we have 
had over several years here, I don't want to paint the entire 
6,500 force in a negative light. We have people that are doing 
great work, and they are pained by this as much as we are here. 
But there is certainly an element, and rightfully so, we have 
got to work to try to get them to where they need to be.
    Mr. Cummings. Would the gentleman yield?
    Mr. Grothman. Thanks much for coming over. I yield the 
remainder of my time.
    Mr. Cummings. Let me ask you, 45,000 applications. Why do--
what is the reason most of these people don't make it? And I 
think a lot of people don't realize that we are hitting a brick 
wall in this country, in many instances with regard to quality 
of people. And I hate to say it, when I listen to my Bowman 
City Police Department and others, they tell me they have to go 
through a whole lot of applications before they can get to a 
few people.
    And I am just wondering, when you are talking about 45,000, 
to fill how many positions?
    Mr. Clancy. That would be a class of 24 is my 
understanding, that that is what I heard when I first came 
back.
    Mr. Cummings. And so what is the main reasons why--if you 
know.
    Mr. Clancy. Yes. Again, this is more anecdotal than having 
the stats right in front of me, but primarily it is drugs, 
drug-related past or credit issues in the past. They are two of 
the things that rule people out.
    But one of the things we are doing now is with this 
excepted service we can bring people in that we may know that 
have a good background, and they can get into that pipeline a 
little bit quicker to go through the polygraph and do the 
background check and all that. So rather than waste a lot of 
time on people that we don't know if they are going to make it 
through or not, we can highlight those that we know will 
probably get through that process.
    Mr. Cummings. Thank you.
    Chairman Chaffetz. Thank the gentleman. Pursuant to Clause 
B of Committee Rule 9, we will use the next 60 minutes for an 
extended period of questioning of the witness. I will now 
recognize myself for 30 minutes.
    Director Clancy, who was the most senior official on duty 
the evening of March 4?
    Mr. Clancy. Most senior official on duty at the White House 
was the watch commander, Captain Braun.
    Chairman Chaffetz. Captain Braun. Did the individual act 
appropriately and report the incident per United States Secret 
Service policy?
    Mr. Clancy. I know he reported it up to the next level.
    Chairman Chaffetz. Which is?
    Mr. Clancy. To the lieutenant or, I am sorry, the 
inspector. He reported it up to his inspector, who was not on 
the complex.
    Chairman Chaffetz. Is it the Joint Operations Center?
    Mr. Clancy. No. The inspector is just his in-line 
supervisor.
    Chairman Chaffetz. And he did report it.
    Mr. Clancy. To the inspector. That is my understanding.
    Chairman Chaffetz. Did the inspector report it, then, to 
who?
    Mr. Clancy. My understanding, again, from the initial 
preliminary review was he reported it to the Deputy Chief, 
Alfonso Dyson.
    Chairman Chaffetz. Who is he supposed to report it to?
    Mr. Clancy. He would report it or should report it to the 
special agent in charge, Robert Buster.
    Chairman Chaffetz. Both of which these--again, these people 
were invited, too. You indicated that you learned of the event 
from a former Secret Service agent.
    Mr. Clancy. That is correct.
    Chairman Chaffetz. Can you describe that call?
    Mr. Clancy. Yes. On the morning of March 9, I was getting 
ready to leave our headquarters to an offsite meeting, and I 
received this call from this individual who said, ``Hey, are 
you aware of this incident that happened supposedly on March 
4?'' And I said, ``No.'' And he went into some of those details 
based on the email that you put up there on the screen and----
    Chairman Chaffetz. Who is the first person you called?
    Mr. Clancy. The first person I called I believe--now, 
again, please forgive me as I go through this, because this is 
weeks ago and I don't have notes in front of me, so I don't 
intentionally mean to misspeak--but I believe it was the 
assistant director of protective operations.
    Chairman Chaffetz. Who is?
    Mr. Clancy. William Callahan.
    Chairman Chaffetz. Who counseled you not to ask questions 
on your own following the incident?
    Mr. Clancy. I am looking at the Management Directive from 
Homeland Security regarding the OIG investigations.
    Chairman Chaffetz. Who is that?
    Mr. Clancy. No, no. I am sorry. The Management Directive--
it is a memorandum with the Department of Homeland Security.
    Chairman Chaffetz. Who did you consult with to make the 
decision that you couldn't ask any questions?
    Mr. Clancy. I don't know if I spoke to or--well, re 
security, the Office of Professional Responsibility. And I 
think that is--they described the process.
    Chairman Chaffetz. Did you consult with Homeland Security?
    Mr. Clancy. Not other than advising them of this incident. 
I didn't consult with them in terms of what I could 
investigate.
    Chairman Chaffetz. Who in your chain of command is 
ultimately responsible for briefing you about security threats 
around the complex?
    Mr. Clancy. The assistant director of protective 
operations.
    Chairman Chaffetz. When did you know that there was an 
assault on one of your officers?
    Mr. Clancy. The evening of March 4, I would have received 
that alert via email. And I believe they called me as well. 
They typically call as well.
    Chairman Chaffetz. So you knew that there was an assault on 
your officer that night. What did you do?
    Mr. Clancy. No. I know that there was a suspicious package, 
and I would have to go back to the PIOC alert, but that there 
was an altercation with an officer. That is routine. They 
happen almost--I wouldn't say every day, but that is a routine 
event at the White House complex.
    Chairman Chaffetz. Should that have triggered the saving of 
the videos?
    Mr. Clancy. It would have--the fact that there was a 
suspicious package would have triggered saving videos.
    Chairman Chaffetz. Assaulting--assault on one of your 
officers, does that trigger----
    Mr. Clancy. Yes. That would have as well. It was one in the 
same. It was the same incident.
    Chairman Chaffetz. Well, two different incidents, but----
    Mr. Clancy. OK.
    Chairman Chaffetz [continuing]. What period of time is 
reasonable before and after that altercation should they have 
saved the videos?
    Mr. Clancy. I would say within--once things settled down, 
they would call that evening. Before the shift--certainly 
before the shift was over, I would assume that the watch 
commander would call the Joint Operations Center.
    Chairman Chaffetz. No. I am saying how much video before 
and after the incident is a reasonable time to save?
    Mr. Clancy. I think anything that captures the incident--
that captures the incident.
    Chairman Chaffetz. Do you deal with these incidents 
different when the President is in the residence?
    Mr. Clancy. I am sorry. Do you mean video----
    Chairman Chaffetz. Does your policy change--all of these 
discussions about response and video and----
    Mr. Clancy. No.
    Chairman Chaffetz. Does not change if the President is in 
the White House.
    Mr. Clancy. No, Mr. Chairman, it does not.
    Chairman Chaffetz. Was the President or anybody in the 
White House briefed on the March 4 incident?
    Mr. Clancy. The White House was briefed on the March 4 
incident, not on March 4, though. When I found out about it on 
March 9. That is my assumption. March 9, when I found out about 
it was----
    Chairman Chaffetz. Who was briefed?
    Mr. Clancy. The Deputy Chief of staff.
    Chairman Chaffetz. And who briefed him?
    Mr. Clancy. The special agent--no, I am sorry. Initially, I 
did via an email, and I think the special agent in charge may 
have followed up on that.
    Chairman Chaffetz. So you sent an email to the Deputy Chief 
of Staff. Who is the Deputy Chief of Staff?
    Mr. Clancy. Anita Breckenridge.
    Chairman Chaffetz. Have you ever spoken with Metropolitan 
Police Chief Lanier regarding this incident?
    Mr. Clancy. I have not.
    Chairman Chaffetz. Have you ever visited with her?
    Mr. Clancy. I have not. We had a----
    Chairman Chaffetz. You are the director of the Secret 
Service. She is the Chief of Police.
    Mr. Clancy. And can I just say that we did have a meeting 
scheduled, and it was--there was a conflict.
    Chairman Chaffetz. You have been in this position for 6 
months as the acting and current director, and you are--you 
have never had a personal conversation with the Chief of Police 
for the Metropolitan Police Department?
    Mr. Clancy. Since I have been back, I have not had a 
personal----
    Chairman Chaffetz. In the last 6 months.
    Mr. Clancy. That is correct.
    Chairman Chaffetz. And not about this incident.
    Mr. Clancy. And not about this incident. Again, there is 
interaction all the time with Metro around the White House 
complex. There are issues every day. There are arrests every 
day.
    Chairman Chaffetz. I just don't understand when the 
principals don't talk to each other.
    Mr. Clancy. And I don't think the Chief would want me to 
call every time we have an incident at the White House complex.
    Chairman Chaffetz. But I would think there would be some 
open lines of communication, some indication that--do you all 
even know each other, and that you have each other's telephone 
number.
    What time did the Protective Intelligence Operations Center 
alert Secret Service personnel about the bomb--about the email 
about the bomb threat? I believe the answer is 11:12 p.m., 
correct?
    Mr. Clancy. Yes.
    Chairman Chaffetz. This is 47 minutes after the package was 
dropped and 15 minutes after the crime scene was disrupted. Who 
drafted the alert?
    Mr. Clancy. Protective Intelligence Division would draft 
the alert.
    Chairman Chaffetz. Do you have a specific name or title?
    Mr. Clancy. I don't.
    Chairman Chaffetz. Do you think it was complete?
    Mr. Clancy. I think based on the information they received 
it was complete. I don't----
    Chairman Chaffetz. You have reviewed this.
    Mr. Clancy. I am sorry?
    Chairman Chaffetz. You have reviewed this. You have gone 
back, looked at it.
    Mr. Clancy. I have read the PIOC alert, yes.
    Chairman Chaffetz. Why didn't this alert contain 
information about the suspicious package barrier being breached 
by Mr. Connolly and Mr. Ogilvie?
    Mr. Clancy. I don't know that they were aware of it. I 
don't know that the Protective Intelligence Division was aware 
of it.
    Chairman Chaffetz. They are watching this on--there is a 
live feed of this, correct?
    Mr. Clancy. There is, yes.
    Chairman Chaffetz. And nobody notices that a car kind of 
just drives right through the scene?
    Mr. Clancy. They may have noticed it. I can't answer, but I 
do know----
    Chairman Chaffetz. That is why we are going to drag these 
people in and have a discussion with them. We tried to invite 
Mr. Buster, Kimberly Tello, Thomas Rizza, and Michael Braun, 
very senior people within the organization. Did the witnesses 
we sent invitations to for this hearing personally receive 
those invitations?
    Mr. Clancy. I don't know that answer. I know they were 
aware, but I don't have the answer if they personally received 
them.
    Chairman Chaffetz. How do you know that they were aware of 
it?
    Mr. Clancy. Because I know that some of our people have 
talked to them.
    Chairman Chaffetz. But not you.
    Mr. Clancy. I have not.
    Chairman Chaffetz. Did they personally decline?
    Mr. Clancy. Did they personally?
    Chairman Chaffetz. Decline to come testify before Congress.
    Mr. Clancy. I was not involved in those conversations, but 
I----
    Chairman Chaffetz. Whose decision----
    Mr. Clancy [continuing]. Don't know if they were asked.
    Chairman Chaffetz. Whose decision was it to not allow 
witnesses invited to testify before this Committee? Who made 
that decision?
    Mr. Clancy. Ultimately, it is my decision.
    Chairman Chaffetz. Why is it your decision?
    Mr. Clancy. They work in the Secret Service, and it is my 
responsibility to make those decisions.
    Chairman Chaffetz. So you told them not to come testify 
before Congress.
    Mr. Clancy. I didn't specifically tell them. Through our 
staffs I said, working with the department, that we would not 
provide them in this open hearing.
    Chairman Chaffetz. Why?
    Mr. Clancy. Again, I was focused on this open hearing, and 
I didn't think it was proper to have them in an open hearing 
giving testimony which would--as we have heard today, the 
morale in the Secret Service among many people is not where it 
should be. And as we bring out----
    Chairman Chaffetz. Are you concerned that it would have 
been embarrassing?
    Mr. Clancy. I am concerned that some of the information 
that would have been released would have generated a lot more 
conversation within the ranks, and they would have said, well, 
if those four were brought up, why didn't we have others, or 
why were they representatives, or their story doesn't sound 
right. It might taint others that have to be investigated or 
interviewed. So there is a number of things that would have----
    Chairman Chaffetz. So instead of transparency, you opted 
for just keep it close to the vest and don't provide that 
transparency, correct?
    Mr. Clancy. No. I wanted--again, I----
    Chairman Chaffetz. You wanted one filter point.
    Mr. Clancy. I wanted the Office of the Inspector General to 
give them some----
    Chairman Chaffetz. We will go back to the conversation that 
we had. Did you or your staff have any conversations with any 
White House officials regarding their appearance?
    Mr. Clancy. With the White--no. No.
    Chairman Chaffetz. You had no conversations with anybody at 
the White House.
    Mr. Clancy. No. My conversations were with--actually, it 
was through my staff, with the Department of Homeland Security.
    Chairman Chaffetz. Who at the Department of Homeland 
Security?
    Mr. Clancy. I can't answer who at the Department of----
    Chairman Chaffetz. Was it Mr. Mayorkas?
    Mr. Clancy. No. I did not speak to Mr. Mayorkas regarding--
--
    Chairman Chaffetz. Will you give us the answer to that 
later?
    Mr. Clancy. I will research that. Yes.
    Chairman Chaffetz. When will you give us that answer?
    Mr. Clancy. We should be able to get that this afternoon, I 
would assume. Yes.
    Chairman Chaffetz. Thank you. That would be great.
    If we invite these individuals, and others within the 
Secret Service, if we invite them in for transcribed 
interviews, will you provide these individuals to the 
Committee?
    Mr. Clancy. I will.
    Chairman Chaffetz. Will you provide all personnel we 
request to the Committee for transcribed interviews?
    Mr. Clancy. With the department, I will certainly work 
through this. But I answered----
    Chairman Chaffetz. You are the director.
    Mr. Clancy. I am the director under the Department of 
Homeland Security.
    Chairman Chaffetz. Can you make this decision by yourself?
    Mr. Clancy. I can take responsibility for it.
    Chairman Chaffetz. Can you make this decision by yourself?
    Mr. Clancy. Well, we would have to see. We would have to 
see.
    Chairman Chaffetz. What does it depend on?
    Mr. Clancy. I am sorry?
    Chairman Chaffetz. Is it Jeh Johnson that makes the 
decision?
    Mr. Clancy. No.
    Chairman Chaffetz. Is it the President that makes the 
decision? Who makes the decision?
    Mr. Clancy. I would seriously doubt this raises to that 
level. I would imagine--again, I am assuming--that it gets to 
the legal offices, and decisions are made there. And I don't 
know if they are looking at precedent. I don't know what they 
might look at there.
    Chairman Chaffetz. Why haven't you fully responded to the 
Committee's letter, done in a very bipartisan way, the letter 
of March 19 for our document request?
    Mr. Clancy. I think some of that takes time to acquire 
all----
    Chairman Chaffetz. Do you intend to fully comply with it?
    Mr. Clancy. Yes, we do.
    Chairman Chaffetz. By what timeframe?
    Mr. Clancy. I can't answer that. I know the intent was to 
try to have it ready completely by today. But some of these 
things it just takes time.
    Chairman Chaffetz. Have you had conversations with Homeland 
Security about the fulfillment of these requests?
    Mr. Clancy. Our staff, I would assume, has.
    Chairman Chaffetz. Is anybody else in the administration 
clearing or approving your response to the Committee?
    Mr. Clancy. No.
    Chairman Chaffetz. But Homeland Security is.
    Mr. Clancy. Homeland Security is looking at the work and 
the decisions that we make, yes.
    Chairman Chaffetz. Anybody at the White House?
    Mr. Clancy. Not that I am aware of.
    Chairman Chaffetz. Why haven't you provided the Committee a 
detailed description and timeline of when you became aware of 
the alleged misconduct or other events of March 4?
    Mr. Clancy. I don't know. I thought I was forthright in the 
testimony today of what my account of that day was.
    Chairman Chaffetz. We need a more complete timeline. You 
have yet to provide a list of all the personnel on duty or 
otherwise involved in the response on March 4. Is that 
something you will provide to the Committee?
    Mr. Clancy. We will.
    Chairman Chaffetz. When?
    Mr. Clancy. I don't have a timeframe for that.
    Chairman Chaffetz. What is reasonable?
    Mr. Clancy. Depends.
    Chairman Chaffetz. It shouldn't be that hard to tell who is 
on duty.
    Mr. Clancy. No, it shouldn't be that hard, so I would 
assume by the early--early tomorrow.
    Chairman Chaffetz. That would be great. We appreciate it. 
Thank you.
    Let me ask you, when you were the special agent in charge 
of the Presidential Protective Detail, the PPD, did you ever 
have a situation in which a lower level agent or officer raised 
concerns about security at the White House complex?
    Mr. Clancy. Well, I am assuming yes, because I was pretty 
open talking to officers.
    Chairman Chaffetz. How did you respond?
    Mr. Clancy. This is when I was a special agent in charge?
    Chairman Chaffetz. Yes.
    Mr. Clancy. Yes, I----
    Chairman Chaffetz. How did you deal with those?
    Mr. Clancy. Well, I would talk frankly with them, what is 
your concern, what can we do, what vulnerability do you see, 
have you talked to your chain of command, I am glad you came to 
me, but be--you should be comfortable going through your chain 
of command. But I don't think it would be unusual for me to 
say, ``I won't talk to you.''
    Chairman Chaffetz. Do you think you encouraged junior 
officers or agents to raise concerns up the chain of command?
    Mr. Clancy. I think I did, and I think my manner was the 
same as it is today, that I am very--I would think very 
approachable.
    Chairman Chaffetz. What is a fireable offense?
    Mr. Clancy. Well, something that would require your 
security clearance to be removed if you have something that 
might affect national security in terms of your relations with 
foreign nationals.
    Chairman Chaffetz. Did you take any disciplinary action 
regarding the failure to report misconduct by your staff?
    Mr. Clancy. In this case, I have not at this point. Well, 
the only--it is not discipline, but I did move the two 
individuals involved until we get through this investigation.
    Chairman Chaffetz. At the time of the March 4 incident, 
what was the Secret Service policy for driving a government 
vehicle after drinking alcohol?
    Mr. Clancy. At the time of the incident, you cannot drive a 
government vehicle under the influence of alcohol.
    Chairman Chaffetz. Can you have a drink? What level is 
acceptable?
    Mr. Clancy. The way the policy reads, going off memory 
here, is that if you are impaired, if you have--you are not 
able to control your actions. So it is not a legal limit. It is 
not the legal limit. So, in other words, it could be less. You 
may not be intoxicated by a legal limit, but someone could say 
that you don't have proper abilities.
    Mr. Gowdy. Will the Chairman yield for a question?
    Chairman Chaffetz. Yes.
    Mr. Gowdy. Has the Chairman or the Ranking Member been able 
to establish who asked Agents Connolly and Ogilvie to respond 
to the scene?
    Mr. Clancy. Again, I don't know the facts of this case. 
What I have heard--and, again, at this point, some are news 
reports and so much information, but I am told that they were 
returning to retrieve a vehicle. They were not responding back 
to the White house.
    Chairman Chaffetz. Can you determine somebody's level of 
intoxication based on a phone call?
    Mr. Clancy. I don't think so.
    Chairman Chaffetz. Do you know how many people attended the 
retirement party of March 4?
    Mr. Clancy. I do not.
    Mr. Gowdy. Will the Chairman yield for another question?
    Chairman Chaffetz. Yes.
    Mr. Gowdy. Director, I am trying to understand this 
dichotomy between the inspector general and you. Does the 
inspector general have jurisdiction to issue subpoenas to 
people outside the Secret Service?
    Mr. Clancy. I don't know that answer.
    Mr. Gowdy. Does the inspector general have jurisdiction to 
interview former agents?
    Mr. Clancy. I am assuming he can ask. They are private 
citizens.
    Mr. Gowdy. But the answer might very well be different, 
right?
    Mr. Clancy. Different in which way, sir?
    Mr. Gowdy. Different from a current agent than a former 
agent.
    Mr. Clancy. Yes.
    Mr. Gowdy. You can't discipline a former agent.
    Mr. Clancy. You are absolutely----
    Mr. Gowdy. Does the inspector general have the power to 
subpoena, say, surveillance video or credit card receipts from 
a bar, hypothetically, where a retirement party may have taken 
place?
    Mr. Clancy. Yes.
    Mr. Gowdy. So the inspector general does have subpoena 
power.
    Mr. Clancy. My understanding is they do. My understanding 
is they are 1811s. They are investigators.
    Mr. Gowdy. Well, my understanding was that they had less 
power than even you would have to investigate your own folks, 
which is why I am kind of wondering, and I am sure the Chairman 
is headed there, why you would stand down your investigation of 
agents in lieu of the inspector general who has no authority 
over former agents at all.
    Mr. Clancy. Yes. I may be wrong on that in terms of the 
subpoena power, but I believe they are investigators and we can 
confirm that. And also, looking at the Management Directive 
from the Department of Homeland Security, specifically says 
that you have to stand down with your investigation.
    Chairman Chaffetz. Let me jump in on this, and we can come 
back if that is all right with the gentleman. So I understand 
that the Washington field office requested the video the 
morning after the incident, within the 72-hour period whereby 
the video should be retained. Why were the videos then erased 
if they were requested within that period?
    Mr. Clancy. I am not aware of that.
    Chairman Chaffetz. Do you think it is suspicious?
    Mr. Clancy. From what I understand of the process, it does 
not seem suspicious to me, first of all, no. You can argue that 
that loop every 72 hours, you can argue that that is not 
enough. But we are not in the position where we delete--we 
intentionally delete film. It is a matter of just selecting 
what you think is pertinent to the incident.
    Chairman Chaffetz. By the way, the Washington field office 
requested, and something that you actually did produce to this 
Committee, but how many different videos or angles have you 
reviewed?
    Mr. Clancy. I would say the same--well, I would say 
including the lady who--yes, I would say three, four. I don't 
know. I know there were five clips.
    Chairman Chaffetz. Right.
    Mr. Clancy. So there may have been five views, very 
similar----
    Chairman Chaffetz. When did you first get to the see the 
videos?
    Mr. Clancy. Again, the days, I don't know when the days 
are. I know I saw it before----
    Chairman Chaffetz. It is kind of important.
    Mr. Clancy [continuing]. Before you saw it. I wanted to see 
what we were going to present to your Committee.
    Chairman Chaffetz. By the way, the timeline, Thursday, 
March 5, 10:40 a.m., WFO requests a copy of the surveillance 
video recording of the incident, is where this comes from.
    Would it have been U.S. Secret Service policy to train 
cameras on the alleged misconduct by Mr. Connolly and Mr. 
Ogilvie in the event--in the evening of March 4?
    Mr. Clancy. I wouldn't say it is policy, but I think if 
there is an incident the watch commander has to decide what an 
incident is, and then he calls back to the Joint Operations 
Center and says, ``Preserve this video,'' if he saw--whatever 
he sees as an incident.
    Chairman Chaffetz. Have you discussed providing custody of 
the video to our Committee with Homeland Security?
    Mr. Clancy. I have not personally, but I believe our staff 
has.
    Chairman Chaffetz. Have you communicated with the White 
House, you or your staff, on possession of the video?
    Mr. Clancy. No, not that I am aware of.
    Chairman Chaffetz. You said you sent an email to the White 
House Chief of Staff regarding the Deputy Chief of Staff on the 
March 4 incident. Did it reference that your staff had 
interrupted a crime scene?
    Mr. Clancy. It referenced--yes, it--I think the way I 
phrased it was that two individuals drove through the secure 
zone. I think that is it.
    Chairman Chaffetz. Did you receive a response?
    Mr. Clancy. I am trying to recall if I spoke to the Deputy 
Chief of Staff or the special agent in charge did. I don't 
honestly remember. I know I did speak to the deputy special 
agent--I am sorry, to the Deputy Chief of Staff. But I don't 
know if the SAIC spoke to her first. I don't know that 
timeframe.
    Chairman Chaffetz. So, but you did speak with her.
    Mr. Clancy. I spoke to her, yes. Yes. I don't know the 
timeframe, though. I honestly don't know the timeframe.
    Chairman Chaffetz. But you will get that to us?
    Mr. Clancy. I will look for it. I didn't keep notes, but I 
will look for when I may have spoken to her.
    Chairman Chaffetz. And will you give us a copy of the email 
you sent?
    Mr. Clancy. Yes. Sure.
    Chairman Chaffetz. Who in the Joint Operations Center would 
have been responsible for real-time flagging of the video 
during the March 4 incident? Who at the Joint Operations Center 
is responsible for that?
    Mr. Clancy. There is an on-duty supervisor at the Joint 
Operations Center that----
    Chairman Chaffetz. You have a forensic services division, 
correct, at the----
    Mr. Clancy. We do.
    Chairman Chaffetz. Have they been engaged in this?
    Mr. Clancy. I think everyone has been trying to retrieve 
these videos.
    Chairman Chaffetz. When you say ``everyone''----
    Mr. Clancy. Well, I am sorry. I should be more concise. I 
know that when we didn't have these videos available that you 
requested we brought in some of our people from cyber 
investigations, as well as some of our people from our 
technical side, as well as the manufacturer. I directed the 
staff----
    Chairman Chaffetz. So did you engage the forensic services 
division?
    Mr. Clancy. I don't know personally who--I just don't know.
    Chairman Chaffetz. Who gave orders on which tapes to 
preserve, which to not, during the March 4 timeframe?
    Mr. Clancy. I don't know that answer.
    Chairman Chaffetz. Who should have been responsible for 
that?
    Mr. Clancy. I would--there is a sergeant, a lieutenant in 
the Joint Operations Center, as well as a GS-14 supervisor. And 
the watch commander decides who or what--what is an incident, 
and typically, as I understand it, would call back and make 
that request.
    Chairman Chaffetz. Recognize the gentleman from South 
Carolina.
    Mr. Gowdy. Thank you, Mr. Chairman. Very briefly, and then 
I want to go to the gentleman of North Carolina who has done so 
much work on this issue.
    Director, I am a little bit vexed as to whether or not 
these two agents were on duty or not. I am sure that you have 
policies on the consumption of alcohol while you are on duty, 
and I don't know whether or not either of these agents consumed 
alcohol. Do you?
    Mr. Clancy. I don't know if they consumed alcohol. That 
will be a matter of the investigation. It will come out.
    Mr. Gowdy. What we do know is that they either responded to 
a crime scene, which would be problematic because they 
potentially contaminated a crime scene, or, secondarily, they 
were unaware and they just can't drive worth a damn and drove 
over a barricade, neither of which would be good scenarios, 
right?
    Mr. Clancy. That is correct.
    Mr. Gowdy. I continue--and then I want to go to the 
gentleman from North Carolina--I continue, honestly, to not 
understand this desire/willingness of government agencies to 
stand down for the inspector general and suspend their own 
internal investigations. I just--you have been an investigator 
for how long?
    Mr. Clancy. Well, I have been in the business 27 years.
    Mr. Gowdy. All right. Twenty-seven years. If you saw two 
GS-15s fighting in the parking lot, would you call the 
inspector general?
    Mr. Clancy. Well, we call the inspector general, and then 
it is their option whether to take it or give it back to our 
agency. They could have refused to investigate and give it back 
to us, but I think, again, in an effort to try to be 
transparent, you know--and, again, I am required to do that by 
the Department of Homeland Security's memorandum.
    Mr. Gowdy. But if there were an ongoing theft, just an 
ongoing theft of, say, a vending machine at your headquarters, 
you wouldn't call the inspector general. Wouldn't you interrupt 
that theft?
    Mr. Clancy. Yes, that one would not be required, because it 
is not a GS-15.
    Mr. Gowdy. Well, what if it were a GS-15?
    Mr. Clancy. If it is a GS-15, we could notify the OIG, and 
then they could make a decision on----
    Mr. Gowdy. I cannot believe that in the throes of an 
ongoing crime you would notify the inspector general. I mean, 
we trust you to protect the life of the President of the United 
States, and you can't investigate a suspected drunk driving?
    Mr. Clancy. Well, we would investigate the incident that--
of the protective interest, which is the female with the bomb. 
That is ours, and we would take that. With regard to 
misconduct, that is something that we would offer to the 
special agent--or to the OIG.
    Mr. Gowdy. Well, I am going to say this in conclusion, and 
then I am going to give the time to the gentleman from North 
Carolina, it is great to correct and punish misconduct after 
the fact. It is even better to prevent it in the first place.
    Mr. Clancy. Yes.
    Mr. Gowdy. And there is not a person here who does not want 
to see you successful, Director. Not a single person on either 
side of the aisle does not want to see you successful. I just 
don't think this is a training issue, and I don't think it is a 
resource issue. But you have got to get to the bottom of 
whatever is pervading the culture, and I hope you can because 
it is a venerable, well-respected agency, and I hate to 
participate in hearings like this.
    Mr. Clancy. Yes, sir.
    Chairman Chaffetz. Thank the gentleman. I reclaim my time.
    Director, it was, according to the Metropolitan Police 
Department, 11 minutes after a suspect has dropped what might 
be a bomb on the gate of the White House with the President in 
the residence. It takes 11 minutes to call Metro Police 
Department. Why does it take so long?
    Mr. Clancy. Yes. I don't know the answer to that.
    Chairman Chaffetz. But how do you not know? This is what is 
so infuriating. You are the director of the Secret Service. It 
is almost 3 weeks after the incident, and you don't know why it 
takes 11 minutes to pick up the phone and say, ``Hey, Metro 
Police Department, we have got a problem down here and we need 
your help.'' It takes 27 minutes to secure the scene, 27 
minutes. What if it was a real bomb? What if it was a real 
bomb?
    Mr. Clancy. Mr. Chairman, I have been at the White House 
complex when we have cordoned off areas, when we have secured 
zones, and it happens very rapidly from my----
    Chairman Chaffetz. But this didn't, and this is the most 
recent example. Why didn't it happen?
    Mr. Clancy. I don't know, and----
    Chairman Chaffetz. Who are you holding accountable?
    Mr. Clancy. Well, we are going to wait--we are not going 
to----
    Chairman Chaffetz. You are going to wait. That is the 
problem.
    Mr. Clancy. We are going to wait and not----
    Chairman Chaffetz. That is the problem: we are going to 
wait.
    Mr. Clancy. Yes.
    Chairman Chaffetz. That is the problem.
    Mr. Clancy. Yes.
    Chairman Chaffetz. That is the problem. It took you 30 
minutes--30 minutes--to be on the lookout for a woman who 
dropped a package at the White House and said, ``This is a 
bomb.'' I want her taken down. I want a net to go over that 
city. I want her in custody immediately. You take 11 minutes to 
call Metro Police Department, you take 27 minutes to secure the 
area, and you take 30 minutes to say, ``Hey, we have got a 
problem here.''
    You get an officer behind the right car and they get waved 
off. They didn't pull them over. You said you had the license 
plate number. We spent millions of dollars building a video 
capability. Somebody can't push rewind and go see what that car 
make, model, and license plate is? Don't we trust that officer 
who had that person in their sight and say, ``Go ahead and pull 
them over until we clear this up.'' But, no, that is not what 
happened.
    Then, you go out to Virginia, you find the person and the 
agents say, ``Well, we don't--we can't really arrest this 
person.'' This is somebody who had already come in contact with 
us, and the problem is, you are still waiting. We are not 
playing games.
    This is the life, safety, and security of the President of 
the United States and the White House. Don't let anybody get in 
that gate. And when they come to the gate and they have got a 
bomb, and they say they have a bomb, believe them. Take them 
down. Take them down. That is what I want to see. I want to see 
determination. I want those officers and those agents to know 
we have got their back. You take those people down. You do not 
let that happen.
    This is the United States of America. The threat is real, 
but I don't feel it, I don't see it, and it is unacceptable.
    Time has expired. Yield to the gentleman from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Clancy, I want to just go back for a few minutes, 
because when all of the dust settles the question is--when all 
of the dust settles, is the President of the United States and 
his family and all of the other protectees safe?
    Mr. Clancy. The President, the White House, the First 
Family, is safe. Absolutely.
    Mr. Cummings. And tell us why you say that.
    Mr. Clancy. I have protected four Presidents. Four 
Presidents who apparently respect the work that I have done. I 
have directly protected Presidents. I know what it takes to 
protect Presidents and their families, and I know that we are 
not a perfect agency. And this is not a perfect science.
    When you look at the number of sites that we have per year, 
you look at the 36,000 people that come through that White 
House every month, we know what we are doing. But do we make 
mistakes? Yes, we do. We make mistakes, and we followup on 
them. Our mistakes, compared to the number of visits that we 
have throughout a year, 5,700 sites in 1 year, we have got a 
pretty good track record. Doesn't mean that we have got to--we 
have a problem here, definitely have a problem. We are going to 
fix it.
    But it is not that all of our practices are off or our 
foundation is bad. We have just got to get--do a better job of 
training our people and responding quicker to some of these 
events. I could list several very positive events where we have 
saved lives, where we have responded very quickly to 
individuals who wanted to climb the fence. I could cite 
numerous examples of that. But I know that today we are looking 
at the--this negative incident.
    But I am confident that because of the good work that is 
being done by the vast majority of our people that the 
President is safe, the First Family is safe, and the White 
House is safe. But it is not an easy task. It is a challenge in 
an urban environment.
    Mr. Cummings. A little earlier I said that when I looked at 
the memo, the email, the anonymous email, that it made me 
realize that--or believe that we had an agency in war with 
itself.
    Mr. Clancy. Yes.
    Mr. Cummings. Do you understand why I say that?
    Mr. Clancy. Yes. There is conflict within the agency.
    Mr. Cummings. The idea that someone would even create the 
email, would create it, put it out there--let us assume it is 
not true. That makes it even worse----
    Mr. Clancy. Right.
    Mr. Cummings [continuing]. To put it out there. You know, 
there used to be a--when I was a kid, there was a saying that 
said, ``When two elephants fight, the ground suffers.'' And the 
point is is that when people are involved in conflict, and that 
is distracting--I know that is--from the mission----
    Mr. Clancy. Yes.
    Mr. Cummings [continuing]. That is a problem. Would you 
agree?
    Mr. Clancy. Absolutely.
    Mr. Cummings. Just the idea that somebody would put that 
out there.
    Mr. Clancy. It is a reflection on all of us that we are 
not--there is not enough trust within the agency that you can't 
bring things up through the agency. Somehow we have got to 
regain that trust. Rather than going out and doing an anonymous 
email, bring it to someone's attention.
    And, again, we have so many avenues that we have created so 
that you can do that, even outside your chain of command, use 
these hotlines and ombudsmen and--or call me directly. I have 
had people directly contact me with issues that they have, and 
then I have followed up on them.
    So, and to the work force that is listening today, if you 
are not getting results, contact me so that we can get results.
    Mr. Cummings. What is the--you know, I think one of the 
things that becomes frustrating for a lot of us up here is 
that--is something I sent to you a little bit earlier. It is 
one thing when you have one incident here, then maybe 2 years 
go by and you have a little incident there. But when you see 
them and they just keep coming, keep coming, keep coming, that 
is when you move into that zone of culture.
    Mr. Clancy. Yes.
    Mr. Cummings. And It seems like the problems, because they 
keep coming, it seems like we are not maybe digging down deep 
enough to try to get to that ongoing situation.
    Now, hold that point, and let me go to number 2 with that. 
One of the things you also talked about, and Congresswoman 
Eleanor Holmes Norton talked about, was this overtime and the 
fact that people can't even get a day off and all that. And all 
of that--and I am sure that plays a role. But help us try to 
understand how you see it.
    I mean, you have got to be sitting there scratching your 
head saying, OK, it is one thing after another. Is it--am I 
digging deep enough to get to the problems? What else do I have 
to do? I mean, when you look at all that you have seen, what--I 
am sure you see some daylight at the end. The question is: how 
do you see yourself getting to that daylight?
    And when I say ``that daylight'' I mean bringing the agency 
back to the level of integrity that it once held. And how do 
you do that? I mean, how do you see yourself doing it? And can 
you see yourself accomplishing that?
    Mr. Clancy. I am trying to stay the course. I am trying to 
stay the course of what we have started 30 days ago when I was 
named the director. As an acting director, you do some things, 
you make some changes, but you are not the permanent director. 
And to be honest with you, I thought if they brought in someone 
else, they would want to bring in their own team, bring in 
their own restructuring, and I didn't want to extend too far 
out until I was the director.
    And now in the last 30 days, I want to stay this course of 
trying to do all we can to hire this staffing. That is the 
biggest issue we have. And I admit there are other issues we 
have got to work on with the way we have handled this incident. 
But if we handle this staffing problem, I honestly believe it 
is going to help the morale a little bit. When people start to 
get days off, then they are more excited to work as a team and 
get back into the business. But that is something we have just 
got to fix, the staffing and the communication. I can't say it 
enough and I know it doesn't mean maybe a lot here as I speak 
to the committee, but we have been stressing with all of our 
officials in Uniform Division, as well as my executive staff. 
And I have personally tried to engage people, engage them and 
make them feel comfortable to talk to us and try to make this 
agency better.
    It is that 1 percent. And I have said this to our roll 
call. It is the 1-percent that is tearing down the 99 percent 
and it is that 99 percent who has got to stand up to that 1 
percent. And that is what I am asking our work force to do. If 
you see someone starting to go south on their professional or 
personal conduct, then that 99 percent has got to straighten it 
out. That person in that vicinity has to grab that individual 
and say that is not what we do. And somehow I need the help of 
the work force, too, besides the supervisors, I need the help 
of the work force to stand up for that agency and make it the 
way it was so many years ago.
    And one last thing, I know I am talking too much here, but 
again, we are talking about some very negative things here, but 
there are so many wonderful, wonderful agents and officers, 
these professional people--I am sorry.
    Mr. Cummings. I agree with you. They are great agents. And 
I have talked to a number of them and as a matter of fact, I 
had one visit with me not long ago. And this was an agent who 
has been around for a good while. As a matter of fact, he is 
about to retire. But he really wanted to make sure that the 
Agency got back to that place that I just talked about.
    And the reason why I ask you these questions is because I 
am trying to figure out can we--I mean it seems as if some 
people probably have to go. And do you understand that? That 
there may be some people who maybe this is not where they need 
to be or maybe they are good people, but it doesn't mean that 
they are necessarily good for this Agency.
    Mr. Clancy. Right.
    Mr. Cummings. And so I mean how do you make those 
determinations? I mean how do you come to that? How do you come 
to those kind of decisions? And do you feel that you can make 
those decisions? If you know somebody, known them for 20 years, 
I mean it is----
    Mr. Clancy. I have made that decision with some people that 
we did offer some other positions in DHS. Again, good people, 
but I wanted this fresh look and this aggressive work that we 
need to have done on the upper levels. If we can set a tone, if 
we can set a tone at the upper levels, that is going to filter 
down. Not only the work ethic, but the professionalism, but 
also this idea of trust.
    I am a great believer in trust. You have got to try to 
through your actions, through your actions, gain trust of 
people. I think we just have to--it is going to take time. But 
I am not giving up. It is going to take time. But we are going 
to have to just keep working through it.
    Mr. Cummings. Now Chief Lanier had told the committee that 
30 minutes was a quick time response. Do you see that as quick, 
30 minutes?
    Mr. Clancy. I don't know. I can't evaluate the chief's 
force. But ideally, we want them there as soon as possible. We 
have our own people on the complex.
    Mr. Cummings. Is there a bomb expert inside?
    Mr. Clancy. Inside the complex, but not for the 
metropolitan streets. Not for the District.
    Mr. Cummings. But inside the White House.
    Mr. Clancy. It is actually in the--I believe it is in the 
NEOB, the New Executive Office Building, so they can respond 
within minutes.
    Mr. Cummings. A question also came up with regard to the 
IG. And according to code, the IG does have the--the IG is 
authorized to require by subpoena the production of all the 
information, documents, reports, answers, records, accounts, 
papers, and other data. Did you know that? Were you aware of 
that?
    Mr. Clancy. I made an assumption and an answer to an 
earlier question, I thought that they could, yes. They are 
1811s.
    Mr. Cummings. Yes, I just want to make sure that we are 
clear on that.
    Mr. Clancy. Thank you.
    Mr. Cummings. Tell me, describe your relationship with--
between the relationship between the Secret Service and the 
Metropolitan Police Department.
    Mr. Clancy. Well, with our Washington Field Office, the 
Agent-in-Charge or Washington Field Office, they work very 
closely with the Metropolitan Police Department. And I can see 
it myself as I walk around the White House, as we have 
protestors and incidents at the White House. They are very 
responsive. I can see them in force. It is actually very 
comforting as just maybe it was a week ago, 2 weeks ago, I 
walked down, it was St. Patrick's Sunday, I think, I walked 
around--or that weekend. We had a St. Patrick's Day Parade, and 
there was a Syrian protest group and there was a large crowd on 
the north fence line. And the Metropolitan Police was there 
offering a lot of support.
    And I remember talking to some of the officers as I walked 
around. My view, it is much better than it was from years ago. 
So I think the relationship was very strong, but their support 
has been very helpful to us. I think there is a very good 
relationship.
    Mr. Cummings. And what has their communications been? How 
has that been between your agency and theirs?
    Mr. Clancy. Well, at the level with the Washington Field 
Office, it has been very good. But to the chairman's point I 
agree that I should have made more of an effort to meet with 
Commissioner Lanier.
    Mr. Cummings. Do you plan to do that any time soon?
    Mr. Clancy. I do. It is on the schedule for maybe next 
week. I can't remember off the top of my head, but I know that 
it had been canceled, and then we had another event that we 
were going to have a table top exercise and that had to be 
canceled, so we have missed a couple of opportunities, but that 
is on me. I should have made more of an effort to reach out to 
the chief.
    Mr. Cummings. Now going back to the incidents of March 4th, 
I understand what you were saying when you said that you were 
concerned. You turned this investigation over to the IG. Do you 
think your Agency, if you had the authority, could have done 
the investigation?
    Mr. Clancy. Absolutely. I think we could have done it much 
faster. I think we would have worked, again, I don't want to 
cast judgment on the OIG. I am sure they are doing a very good, 
thorough job, and that is why we gave it to them, but we would 
have worked on this very quickly. But I didn't want that view. 
The concern was that it is the Service taking over their 
investigation of their people and then I just didn't want to 
take that chance. And again, I am required to give it to the 
OIG.
    Mr. Cummings. I understand that. But I have heard you say 
this many times about being concerned about--first of all, you 
had a duty to do it, but putting that aside, this idea of the 
perception----
    Mr. Clancy. Yes.
    Mr. Cummings. Talk about that for a minute, the perception 
that if you had gotten involved. Because I have heard you say 
this now at least five or six times.
    Mr. Clancy. Yes, I just wanted to be as transparent. Maybe 
the best example I can give you is I know many members wanted 
an outsider in this position so that that outsider could make 
decisions. So here we have this incident and I have reached to 
an outsider to investigate. And now I am being told that it 
should have been an insider, us, to do it. So I am trying to be 
transparent here.
    I admit that being new in the role that there is a lot for 
me to learn and I am going to learn from my mistakes, but I did 
want to be transparent. I just didn't want to have any 
indication that we were tainting the investigation. And that is 
why again right or wrong, I compartmentalized things and said 
OK, the OIG has got it, let me focus on the protection of the 
White House today and tomorrow and future trips, the First Lady 
who is making a trip overseas.
    There are so many other issues and threats that are coming 
in and this is my third hearing and I had the closed hearing, 
too. As you can imagine, that takes considerable amount of time 
from some of my other duties that I am concerned that are in 
the future here. And I have got to focus on these like the 
Pope's visit, and the campaign. These are things that I should 
be looking at now, in advance, to make sure that we don't go 
down the wrong path. And again, it is on us. We put ourselves 
in this position, I realize that. But it has taken a 
considerable amount of my time to look back when I was content, 
at this point, to let the OIG do that investigation so I could, 
I had hoped to be able to focus on the protection today and our 
future events.
    Mr. Cummings. You know, I told you that one of my concerns 
all along here is that, and I think you are getting a feel that 
it is probably the concerns of a number of us is that in the 
process of waiting for the OIG to come back with their 
findings, recommendations, and what have you, that the 
President still has to be seen.
    Mr. Clancy. Yes.
    Mr. Cummings. And a lot of the concern went to if there are 
things that could be threatening to the safety and welfare of 
the President and the family and all the others that you 
protect, whether while we are waiting something could not be 
happening. Now let me finish. You had mentioned to me, you had 
told us that you were going to go back a few days later to the 
OIG and be in contact with them as to things that they could 
let you know that would allow you, if they being serious enough 
to be able to act with regard to disciplinary issues. Did you 
have that conversation?
    Mr. Clancy. I did not have a second conversation with the 
OIG. I will say that as a result of what I do know here where 
these agents drove through the secure zone, we had our 
assistant director for training. We gave him the task of going 
back out and looking at our model for incident commands, what 
do we do when we have an incident like this? Are we securing 
the zone properly? Is the communication done properly? So that 
directive has gone out from my office to the training director. 
So we are looking at this from where we are now from the 
outside. And just from that, we know there are things that we 
can do better and we are addressing those. The piece that is 
missing, primarily, is the accountability piece, and that comes 
when we get the definitive facts as they come through.
    Mr. Cummings. Now you were going to, you told the chairman 
that you were going to produce certain witnesses. Now I am not 
trying to put words in your mouth now, let me finish. I want to 
make sure we are all on the same page and I want to make sure 
you said what I think you said, that you are going to produce 
certain witnesses for interviews. Is that right? Is that your 
understanding?
    Mr. Clancy. I have to go back to the Department, but that 
will be my recommendation that if we go back to the Department 
and not in open hearing though.
    Mr. Cummings. Right.
    Mr. Clancy. We will do it in a closed hearing.
    Mr. Cummings. Right.
    Mr. Clancy. And do it in that mode.
    Mr. Cummings. And would that satisfy your concerns with 
regard to interfering with the IG? And by the way, we told the 
IG that we would work with them so as we would avoid those 
kinds of problems.
    Mr. Clancy. It would satisfy my concerns. In all candor, 
that will go through the work force and they will know who has 
been brought in, who hasn't, and it generates a lot of chatter, 
but it would satisfy my concerns.
    Mr. Cummings. But you know, when you say it would cause a 
lot of chatter, a lot of chatter is going to be caused no 
matter what because the IG has to interview the same people we 
want to interview. You understand that, right?
    Mr. Clancy. Yes. If you are going to do all the interviews 
they are doing, yes, sure.
    Mr. Cummings. We probably will do quite a few interviews. 
And so what is the difference?
    Mr. Clancy. There may not be, Congressman, in a closed 
hearing.
    Mr. Cummings. Yes, I am talking about closed. Yes, I am 
talking about closed. So what can you tell us, so if you were 
working with the IG, you said that if you had done the 
investigation, it would have been much faster. Is that right?
    Mr. Clancy. That is my view. Again, it would be an 
assumption, but knowing that we would throw all of the assets 
that we have available, we would take investigators, we would 
empty out our Internal Affairs and 24 hours a day, we would 
follow through on this to get it done so we can act on it 
quicker.
    Mr. Cummings. Now when you have a shortage of manpower, how 
do you deal with that? You talked about all the vacancies. I 
still can't get over this 45,000 people.
    Mr. Clancy. Yes, sir. When we have a shortage of manpower, 
operationally, we pull people in. Just as an example, at the 
White House now, the Uniform Division, as we have discussed is 
short in terms of manpower. So we have brought in agents to 
assist in some of these positions until they get up to staff. 
And we are working toward building up their staff. In fact, 
this year we should hire approximately 192 officers, maybe a 
little bit more to bring them on.
    Now the key here is the retention piece of it. It is one 
thing to bring them on, but if we lose a hundred, then our 
increase is not as great as we would like. So we are looking at 
both, not just the hiring, we are looking at retention matters, 
too. Should there be bonuses available, retention bonuses? We 
are looking at other options, too, looking at annuitants, 
people who have retired. Can we bring them back in some kind of 
a role with our Uniform Division? So we are looking at as many 
different options available to try to buildup our staff and 
that is where we are.
    Mr. Cummings. Does it surprise that out of 45,000 people, 
you can't get a few? I mean does that surprise you?
    Mr. Clancy. It absolutely does.
    Mr. Cummings. And you said mainly because of drugs.
    Mr. Clancy. Primarily because of drugs.
    Mr. Cummings. And when you say drugs, do you mean a history 
of drugs or they come in for a drug test and they are still on 
drugs?
    Mr. Clancy. Very often it is through the polygraph 
examination, when they are asked questions through the 
polygraph examinations, there are admissions to possibly 
selling drugs or having some kind of a past, crime in the past 
or something.
    Mr. Cummings. Let us say if somebody is asked have you ever 
used marijuana? And they say, yes, I used it in high school and 
now they are 27 years old. What happens to that person? In 
other words, is that the kind of thing that disqualify them?
    Mr. Clancy. I don't know that I can go into specifics for 
each one. Because, I am sorry, others may hear that----
    Mr. Cummings. I got you. So it is a major problem though.
    Mr. Clancy. It is a dilemma, but we have to go through that 
in order to get good people. We are willing to--we are not 
going to compromise our hiring standards.
    Mr. Cummings. Right.
    Mr. Clancy. Because we have got to get good people. Now the 
thing I have got to battle with, we have done all this vetting 
and it takes seven or 8 months and they go through the 
polygraph and the background checks and they get this Top 
Secret clearance, where do we lose them when they get to the 
10-year mark, the 15-year mark? Why are they not--why do they 
write to the members? Why are they disgruntled? Why are they 
not reporting up through the chain of command? That is 
something I have got to find a solution to that because we are 
getting good people on the front end. And again, I am so sorry 
to keep saying this, but again, we are looking at a smaller 
element. Our work force is listening to this, probably saying 
hey, this isn't the work force I know. But there is an element 
that we have got to do a better job of reaching.
    Mr. Cummings. Do we have to do a better job of making sure 
that the people in the supervisory roles are well selected? 
Because I have told you several times I have been sitting for 
years on the board of the Naval Academy. And one of the things 
I have noticed is that they are very--the students are very 
selective about who has leadership roles up and down the ranks. 
And it is earned. People have earned trust. People have shown 
good examples. And it is not a I am going to scratch your back 
and you scratch mine, none of that. But I am just wondering, 
are you looking at how you are elevating people because you can 
have people at the top, but if you have got folks in 
supervisory roles, for example, who might say to officers rank 
and file don't conduct a sobriety test, hypothetically. We are 
still figuring all this out.
    Mr. Clancy. Right.
    Mr. Cummings. That is pretty bad because then you have got 
the person who is trying to do their job being told not to do 
their job. You are talking about something that would be 
harmful to morale and at the same time take away from the 
mission. That is a hell of a dilemma. So are you looking at how 
you promote people and trying to make sure you have the right 
people in the right positions?
    Mr. Clancy. Well, a couple of things. I know some things 
that have taken place in the time that I was not in the Service 
when I had left. To make it more objective, there is testing. 
So you have got to either pass the test or you don't pass the 
test to go on to the next level. So that prevents someone from 
just tapping their friend and saying you are going to be a 
supervisor. So you have got to get through that test. But 
beyond that, we have got to do more training with those 
supervisors we have in place today. We have got to do more 
ongoing training so that they engage their work force. I am 
just thinking of the Uniform Division, for example. Those 
officials need to be walking around that complex as much as 
possible, engaging their employees, testing our employees. Go 
up to the officers and say OK, if this happens, what are you 
going to do?
    I often give the example, you know, if you have ever played 
baseball, you sit out there in right field and you are thinking 
about what if it is a ground ball or what if it is a fly ball, 
what am I going to do with the ball? Well, that is what we have 
to do in our line of work. I think you have always got to be 
thinking about if this happens, what is my reaction so that you 
are not slow in reacting.
    Mr. Cummings. Yes. My time is running out, but let me say 
that first of all to the men and women of the Secret Service, I 
want to thank them for what they do. And I have watched them 
whenever they are around. I mean I have just seen phenomenal 
professionalism. But when these things happen, you are right, 
it just takes away from all of those folks who are doing a 
great job. And I am hoping that they will accept your 
directions. And that is that if there are people who are not 
doing the right things, that they themselves will weed them 
out, like they do in the Naval Academy. They will weed them out 
in a minute because they want to make sure that they keep this 
elite organization elite and maintain that reputation. They 
want to make sure that the reputation matches the performance.
    So again, I want to thank you, but I have got to tell you, 
as I have said many times, we have got a high-powered 
microscope on this agency.
    Mr. Clancy. I understand.
    Mr. Cummings. And we will not rest in a bipartisan way. We 
will not rest until we get back to where we need to be. Thank 
you, Mr. Chairman.
    Chairman Chaffetz. I now recognize the gentleman from 
Georgia, Mr. Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. Mr. Clancy, thank you 
for being here. We appreciate this very much. I want to 
reiterate what Representative Gowdy said earlier and that is 
that we all want to see you succeed, we do. We truly, sincerely 
bipartisanly. We want to see you succeed and we hope that you 
will do that. Unfortunately, off to a bad start.
    Mr. Clancy. Yes, sir.
    Mr. Carter. And that happens, OK? Let me ask you something. 
When your agency hires a new employee, can you tell me what the 
process--how much time it usually takes when you hire a new 
employee, the amount of time?
    Mr. Clancy. Well, to go through the hiring process is 
approximately 7 months, seven or 8 months. We have cut it down. 
It was longer up until about a year ago, but we have cut it 
down to about seven or 8 months. And then once we get them on 
board, they go through training for 7 months. We send them down 
to Georgia for three and a half months of training down at the 
Federal Law Enforcement Training Center.
    Mr. Carter. By the way, that is in my district. Thank you 
very much.
    Mr. Clancy. It is a great facility. It has grown quite a 
bit since I have been down there, but they get excellent 
training down there in basic law enforcement training. And then 
they come up to Washington for more specific training related 
to the Secret Service laws, investigations, and protection and 
of course, our cyber mission. So it is about a 7-month 
training.
    Mr. Carter. Of that 7-month training, and I am not talking 
specifically about training, but what about background 
investigations? How long does that usually take?
    Mr. Clancy. And others can correct or we will correct the 
record later if I am wrong on this, but it was 14 days----
    Mr. Carter. I am looking specifically for the background 
check.
    Mr. Clancy. For the background, the field office to the 
best of my knowledge is they get 14 days to go and go to your 
schools and neighborhoods and do that background check.
    Mr. Carter. Right.
    Mr. Clancy. Now it may have been brought down to 10 days.
    Mr. Carter. But recently, has it been adjusted to be less 
than even that, maybe just 3 days?
    Mr. Clancy. You know, one of the other members had 
mentioned that. I am not aware of that down to 3 days. I was 
aware that it may go down to 10 days. I will research that when 
I go back to see if it dropped down to 3 days.
    Mr. Carter. Wait, you weren't aware of it. We have got 
information that says there was an email sent out that said 
because you were trying to fill a class for March that you 
wanted to decrease it to 3 days, but you didn't approve that?
    Mr. Clancy. No, now I don't get involved at that level to 
be candid with you, sir, with how they are--I set the tone with 
how many classes we wanted to get, what is the goal? To get 
nine classes or eight classes, and then just fill those 
classes. I don't know if they have brought it down to 3 days. I 
am not aware of that.
    Mr. Carter. Do you feel like you should get involved? I 
mean that seems to me like that is a pretty high management 
decision and that is something that you ought to run by the 
boss.
    Mr. Clancy. Yes, well, the requirements stay the same 
though. There is somewhat of a check box. You have to make sure 
you talk to so many neighborhood--neighbors, somebody at 
schools. You have to still do a background check. It is just 
that your time to do it is condensed. It is not that you can 
knock off some parts of the background check.
    Mr. Carter. OK, well, let me ask you in the background 
check, if you find someone who has got a dual nationality, does 
that impact whether you hire them or not?
    Mr. Clancy. A dual nationality? You cannot have dual 
citizenship.
    Mr. Carter. You cannot have dual citizenship.
    Mr. Clancy. Yes.
    Mr. Carter. But it is my understanding that that did happen 
during this time that you had the 3-day background check 
period.
    Mr. Clancy. That someone was brought in with a dual 
citizenship?
    Mr. Carter. That is my understanding.
    Mr. Clancy. I will check on that. Our staff will check with 
yours and we will followup on that.
    Mr. Carter. OK. I am just concerned. It seems to me like 
when there is an alteration in policy, you know, the one 
thing--look, I am a small business owner. OK? The one thing I 
don't like is surprises. And that is all I tell my staff.
    I believe you surround yourself with good people and you 
let them go at it and I admire that and I think that is good 
management practice, but at the same time I don't like 
surprises. And it would appear to me that going from a 14 or a 
10 day background check period to a 3 day, that is a surprise.
    Mr. Clancy. Yes, sir. That is a considerable condensing of 
our hiring process. We will definitely followup on that and 
certainly if you will help us with that dual citizenship issue.
    Mr. Carter. OK, back to the dual citizenship. If you do 
find out they have dual citizenship, then they are ineligible? 
They have to renounce one of their citizenships?
    Mr. Clancy. My understanding is yes, they have to renounce 
their citizenship. They have to be American citizens.
    Mr. Carter. OK. All right, well, again, let me reiterate 
that we want to see you succeed and we don't want to see you 
here. OK? The less we see of you, the better off we are and the 
better off you are.
    Mr. Clancy. Yes, sir.
    Mr. Carter. Thank you.
    Mr. Clancy. Thank you, Congressman.
    Mr. Carter. Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. Thank the gentleman. Listen, on behalf 
of all of us, please convey to the men and women who do the 
hard work day in and day out, holidays, weekends, they have got 
the family lives going on and yet, they are asked to continue 
to perform their duties. Please, I hope they know how much we 
love them, care for them, and wish them nothing but the best. 
That is why we go through this process. It is part of what 
makes the United States of America the greatest country on the 
face of the planet is we are self critical. You can't do this 
type of discussion that we are having in most countries.
    As representatives of the people who care about what you do 
and how you do it, that is the spirit in which we approach that 
and I know you share that as well. So we thank you for your 
personal service. We thank the men and women for all that they 
do and the men and women who are behind you supporting you here 
today, but probably most importantly back at the office or at 
home or on the grounds of the White House or wherever it might 
be we thank them. So this will continue. We do appreciate it, 
but the committee stands adjourned.
    [Whereupon, at 1:33 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
